<html>
<title> - HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




  HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL 
 GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 22, 2002

                               __________

                           Serial No. 107-225

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

87-891              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                 MAJOR R. OWENS, New York
ADAM H. PUTNAM, Florida              PAUL E. KANJORSKI, Pennsylvania
JOHN SULLIVAN, Oklahoma              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                  Bonnie Heald, Deputy Staff Director
                        Chris Barkley, Assistant


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 22, 2002..................................     1
Statement of:
    Ganske, Hon. Greg, a Representative in Congress from the 
      State of Iowa..............................................     2
    Gilchrist, Mary J.R., director, University of Iowa Hygienic 
      Laboratory; Christopher G. Atchison, associate dean for 
      public health practice, College of Public Health, 
      University of Iowa; Dr. Manjit Misra, director, seed 
      sciences, Iowa State University; Richard Hainje, Director, 
      Region VII of the FEMA, the Federal Emergency Management 
      Agency; James F. Bogner, Special Agent in Charge, Omaha 
      Division, Federal Bureau of Investigation; and Paul L. 
      Posner, Managing Director, Federal Budget Issues, Strategic 
      Issues, U.S. General Accounting Office.....................    67
    Leach, Hon. James, a Representative in Congress from the 
      State of Iowa..............................................     3
    Pate, Paul D., mayor of Cedar Rapids; Ned Wright, director, 
      Linn County Management Agency; Chief Stephen C. Havlik, 
      Cedar Rapids Fire Department; Douglas A. Feil, director, 
      environmental training programs, Kirkwood Community 
      College, Cedar Rapids, IA; and Bruce Lacy, nuclear business 
      assets manager for Alliant Energy, Duane Arnold Energy 
      Center, Cedar Rapids, IA...................................     5
Letters, statements, etc., submitted for the record by:
    Atchison, Christopher G., associate dean for public health 
      practice, College of Public Health, University of Iowa, 
      prepared statement of......................................    78
    Bogner, James F., Special Agent in Charge, Omaha Division, 
      Federal Bureau of Investigation, prepared statement of.....   115
    Feil, Douglas A., director, environmental training programs, 
      Kirkwood Community College, Cedar Rapids, IA, prepared 
      statement of...............................................    40
    Gilchrist, Mary J.R., director, University of Iowa Hygienic 
      Laboratory, prepared statement of..........................    70
    Hainje, Richard, Director, Region VII of the FEMA, the 
      Federal Emergency Management Agency, prepared statement of.   102
    Havlik, Chief Stephen C., Cedar Rapids Fire Department, 
      prepared statement of......................................    31
    Misra, Dr. Manjit, director, seed sciences, Iowa State 
      University, prepared statement of..........................    95
    Pate, Paul D., mayor of Cedar Rapids, prepared statement of..     8
    Wright, Ned, director, Linn County Management Agency, 
      prepared statement of......................................    15

 
  HOW EFFECTIVELY IS THE FEDERAL GOVERNMENT ASSISTING STATE AND LOCAL 
 GOVERNMENTS IN PREPARING FOR A BIOLOGICAL, CHEMICAL OR NUCLEAR ATTACK?

                              ----------                              


                       THURSDAY, AUGUST 22, 2002

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                     Iowa City, IA.
    The subcommittee met, pursuant to notice, at 1:10 p.m., in 
the Main Lounge, Iowa Memorial Union, University of Iowa, Iowa 
City, IA, Hon. Stephen Horn (chairman of the subcommittee) 
presiding.
    Present: Representatives Leach and Ganske.
    Staff present: Bonnie Heald, deputy staff director; 
Christopher Barkley, assistant to the subcommittee; Michael 
Sazonov, staff assistant; Meghan Gutierriez and Curt 
Mercadante, Dr. Ganske's Staff; Bill Tate, Mr. Leach's Staff; 
Norine Zamastil, University of Iowa.
    Mr. Horn. A quorum being present, this hearing of the 
Subcommittee on Government Efficiency, Financial Management and 
Intergovernmental Relations will come to order.
    On September 11, 2001, the world witnessed the most 
devastating attacks ever committed on the U.S. soil. Despite 
the damage and enormous loss of life, the attacks failed to 
cripple this Nation. To the contrary, Americans have never been 
more united in their fundamental belief in freedom and their 
willingness to protect that freedom.
    The diabolical nature of these attacks and then the deadly 
release of anthrax sent a loud and clear message to all 
Americans: We must be prepared for the unexpected. We must have 
the mechanisms in place to protect this Nation and its people 
from further attempts to cause massive destruction.
    The aftermath of September 11th clearly demonstrated the 
need for adequate communication systems and rapid deployment of 
well-trained emergency personnel. Yet despite billions of 
dollars in spending on Federal emergency programs, there remain 
serious doubts as to whether this Nation is equipped to handle 
a massive chemical, biological or nuclear attack.
    Today, the subcommittee will examine how effectively 
Federal, State and local agencies are working together to 
prepare for such emergencies. We want those who live in the 
great State of Iowa and the good people of the cities such as 
Iowa City and Cedar Rapids to know that they can rely on these 
systems, should the need arise.
    We are fortunate to have witnesses today whose valuable 
experience and insight will help the subcommittee better 
understand the needs of those on the front lines. We want to 
hear about their capabilities and their challenges, and we want 
to know what the Federal Government can do to help. We welcome 
all of our witnesses and look forward to their testimony.
    I'm delighted to have with us, and without objection they 
will be in full matters on this particular subcommittee, and 
they are Mr. Ganske and Mr. Leach. No State has two statesmen 
like these two gentlemen, and Iowa should be very proud of both 
gentlemen.
    And I will start with Mr. Ganske and then Mr. Leach.
    The first statement.

  STATEMENT OF HON. GREG GANSKE, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF IOWA

    Mr. Ganske. Thank you, Mr. Chairman.
    I want to thank you and the House Subcommittee on 
Government Efficiency, Financial Management and 
Intergovernmental Relations for coming to Iowa to examine how 
the Federal Government is assisting State and local governments 
prepare for potential terrorist attacks involving biological, 
chemical or nuclear agents.
    This is the latest of many steps taken by our Government to 
respond to these threats. My own House Energy and Commerce 
Committee passed legislation based on a bill I introduced in 
the House, along with my colleague, Senator Bill Frist in the 
Senate, which the President later signed into law.
    Mr. Chairman, on September 11, 2001, the world witnessed 
the most devastating attack ever committed on our soil. Ever 
since September 11th and the anthrax attacks on the U.S. 
Capitol, Americans are, rightly so, concerned about the threat 
of biological and chemical warfare.
    The threat of further chemical and biological agents is 
real. The ease with which biological and chemical agents can be 
concealed and their potential to effect large segments of the 
population beyond those initially exposed only increases their 
appeal to terrorists.
    A terrorist attack using a deadly agent could kill or 
sicken millions of Americans. Many countries have developed 
biological warfare capabilities in spite of the fact that there 
are treaties against it.
    While the Center for Disease Control designates 36 
different pathogens or germs as extremely dangerous, we are 
most threatened by about 10 to 15 agents. These agents share 
the ability to be easily produced, stored and can cause 
thousands, if not hundreds of thousands, of deaths. The most 
commonly known agents on that list are anthrax and smallpox.
    It was my opinion that before September 11th there was no 
hospital in this country capable of handling an epidemic. 
Whether we're talking about Johns Hopkins in Baltimore or the 
University of Iowa Medical Center here in Iowa City--and, Mr. 
Chairman, I want to point out how appropriate it is to have 
this type of hearing in Iowa City, with its high concentration 
of health care providers and services--our local hospitals have 
no excess capacity to handle massive numbers of sick patients. 
In fact, many hospitals do not have the expertise to detect a 
biologic attack rapidly enough to effectively limit the 
dispersion.
    We need to be able to monitor our air, water, land and 
fellow humans to promptly detect infection. Once detected, we 
need resources to treat the disease by containing outbreaks and 
treating affected people. We need medicines and vaccines to 
combat these biologic agents.
    Recognizing these threats, last year, Senator Frist and I 
introduced the Bioterrorism Preparedness Act both in the House 
and the Senate. This legislation strengthened our Public Health 
infrastructure and enhanced our national security in the wake 
of the events of September 11th.
    Congress used our bill as a template for the bioterrorism 
protection legislation that President Bush signed into law this 
past June. The new law strengthens Public Health preparedness, 
enhances controls on biologic agents and protects our food, 
drugs and drinking water supplies.
    It authorizes increased funding through grants to States, 
local governments and other public and private health-care 
facilities to improve preparedness, to enhance laboratory 
capacity, to educate and train health-care personnel and to 
develop new drugs, vaccines and therapies. It also increased 
funding for the CDC and established a national data base of 
dangerous pathogens and biologic agents.
    This bioterrorism bill is much needed, but I should point 
out that it is the first step in addressing this. It is a bill 
that authorizes the expenditures. Today, Congress is dealing 
with the funding of that bill that isn't allowed.
    Mr. Chairman, as a Nation, we're taking steps to prevent, 
detect and respond to those attacks, those potential attacks. 
We recognize that it is always best to plan for the worst and 
hope for the best.
    As the old adage reminds us, an ounce of prevention is 
worth a pound of cure. As a physician, I know that very well. 
However, even with extensive spending on Federal programs, I 
think there still remains a serious concern about the threat of 
a chemical, biological or nuclear attack.
    I'm anxious to learn today from fellow Iowans strategies 
that they think will help us to prevent such a catastrophe.
    There is an old joke, with the saying, ``I'm from the 
Federal Government and I'm here to help.'' But in this hearing, 
we are here to help and to learn from you.
    Thank you, Mr. Chairman, for coming to Iowa.
    Mr. Horn. Thank you very much.
    The other gentleman from Iowa we're delighted to have here, 
Mr. Leach.

  STATEMENT OF HON. JAMES LEACH, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF IOWA

    Mr. Leach. Well, thank you, Mr. Chairman. It's an honor to 
welcome you here to this town.
    As many of you know, Steve is a former college president 
and one of the most distinguished Members of our body.
    I will only make a very brief set of comments. One, if you 
take the Twentieth Century, it was largely about three 
phenomenons: war, science and communication.
    We know about the first world wars that have ever occurred 
on the planet, we know about the shrinking of the globe in 
terms of communications. And then, in terms of science, we have 
the dual dimensions of splitting the atom that has brought us 
nuclear energy. It's also brought us the capacity to destroy 
people through weapons. Likewise, symbolically, splitting the 
gene has brought us the greatest new techniques of treating 
illness, but it's also brought us weapons of war. And the real 
challenge is how we are prepared to deal with both the nuclear 
and the biochemical issues.
    I will conclude by saying that it's truly important that 
America be prepared in the medical sciences. This is far more 
significant than any kind of nuclear shield.
    It is also really important that we deal with the causes of 
people wanting to develop these weapons. So, in a dual sense, 
we've got to be concerned with understanding as well as for 
preparedness for people who don't understand each other.
    So this hearing is largely about preparedness, it's a very 
important hearing, and I appreciate Congressman Horn coming to 
this State as well as a series of other stops around the 
Country to develop a congressional response to the issues 
before us.
    Thank you.
    Mr. Horn. I thank the gentlemen, and we will now begin with 
the presenters.
    This is an investigating committee, so let me examine a few 
things here. We're going to ask each presenter, as a group, to 
have an oath, affirmant for the whole truth and nothing but the 
truth, in a minute.
    We are delighted that you've been here. Your papers are 
excellent that we've seen and looked at at 12 midnight or 2 
a.m., because we moved around, and then we see some of these 
documents, and it's been excellent in Kansas and other places 
that we've been.
    Iowa is sort of a green carpet of soybeans and corn and 
everything. And as one person said, he finally found a farmer 
that's smiling, and this is the year.
    So we're delighted to have the Mayor of Cedar Rapids here, 
Honorable Paul D. Pate.
    And, if you will, all of you, raise your right hands.
    OK. Clerk will note that the six members have taken the 
oath.
    [Witnesses sworn.]
    Mr. Horn. We'll start with Mr. Pate, and then we'll just go 
right down the line.
    When I call your name, under our rules, your full document 
is automatically put in the record at that point, and we would 
like you to summarize somewhere between 5 minutes and 10 
minutes to give us the feeling. We've all read it--the staff, 
myself, so forth and we're glad to have the Mayor.
    And so, Mayor Pate, the floor is all yours.

STATEMENTS OF PAUL D. PATE, MAYOR OF CEDAR RAPIDS; NED WRIGHT, 
   DIRECTOR, LINN COUNTY MANAGEMENT AGENCY; CHIEF STEPHEN C. 
    HAVLIK, CEDAR RAPIDS FIRE DEPARTMENT; DOUGLAS A. FEIL, 
 DIRECTOR, ENVIRONMENTAL TRAINING PROGRAMS, KIRKWOOD COMMUNITY 
  COLLEGE, CEDAR RAPIDS, IA; AND BRUCE LACY, NUCLEAR BUSINESS 
ASSETS MANAGER FOR ALLIANT ENERGY, DUANE ARNOLD ENERGY CENTER, 
                        CEDAR RAPIDS, IA

    Mayor Pate. Thank you.
    Thank you, Mr. Chairman, Representative Leach and 
Representative Ganske, and distinguished guests.
    As mentioned, I am the Mayor of the city of Cedar Rapids. 
First, let me thank you for holding this hearing here today. 
This topic is important to the Heartland and in particular to 
communities the size of that which I am the Mayor.
    We all know, many of the terrorists who struck on September 
11th of last year entered into the air system through airports 
in areas smaller than those in major, metropolitan areas, 
places much like the Cedar Rapids-Eastern Iowa Airport.
    We appreciate the efforts made at the Federal level to help 
secure airports, but many of the mandates have come without 
funds. For example, staffing the law enforcement officer at the 
Eastern Iowa Airport 16 hours each day from May 10, 2002 
through December 1, 2003 will cost us $300,917. The 
Transportation Security Administration has only allocated 
$27,404 in reimbursements due to the rejection of the $5.1 
billion in funding designated in the Supplemental Spending Bill 
as contingency emergency.
    The Eastern Iowa Airport also anticipates added security 
costs of $586,240 for vehicle inspections from September 11, 
2001, through September 30, 2002. Their costs have only been 
reimbursed through April 2002.
    For this, and other reasons that follow, I'm asking for 
more Federal assistance through funding and more freedom at the 
State level to direct those funds to communities.
    In our community, we realize that we are an important part 
of the food production process also. In watching and listening 
to and reading the news each day, this point is echoed across 
the country. The breadbasket of this Nation is in need of 
additional money for protection of the resources we provide to 
the world through value-added agriculture. As farm fields are 
of great importance, the companies and infrastructure that 
process those raw products are just as important.
    Not a day goes by in any metropolitan area that you don't 
hear a siren. Sometimes those sirens are false alarms; but, 
many times, the sirens mean there's a life hanging in the 
balance. People are more mindful than ever of air traffic above 
them and the ground traffic around them.
    Our children see the world differently. Their teachers 
teach about life skills differently. Schools and communities 
have been forced to reassess their ability to perform in a 
disaster situation.
    Whether it's from a fire, an automobile accident or other 
medical emergency, all too often, our men and women in police, 
fire and EMS are called to someone's last, best hope of 
survival. These people are part of the front lines, the first 
responders that will take action in the case of a terrorist 
attack.
    Companies, big and small alike, local, State and Federal 
Government agencies have reallocated precious resources based 
on what used to be a worst-case scenario, what could become a 
stinging reality.
    During the U.S. Mayors Conference summit in January of this 
year, I visited Ground Zero. It was a very sobering experience, 
to say the least. It was humbling to see both the destruction 
and the dedication in New York and at Washington.
    One thing came through loud and clear from that visit, 
though: By refocusing on public safety, our communities have 
refocused on one of the essential goals of every governmental 
body--the safety and security of the individual.
    What we are talking about today is the next step. From 
Iowa's Emergency Management Division through local fire and 
police department officials, from the proposed National Mass 
Fatalities Institute in Cedar Rapids to information provided 
from the point of view of the HAZMAT community, all these 
messages talk about one thing that is key to making everything 
work: preparedness.
    From our homes to our city halls, preparedness is the key 
to efficient, timely and effective action and reaction. By 
making our communities safer in so many different ways, you 
make them more productive. Our towns become more inviting 
places to live, build businesses and grow. It's not even about 
new rules or legislation. It's about funding.
    By taking all that you hear today back to Washington, you 
will take information away that benefits all our communities. 
It's a strong investment in the future.
    Cedar Rapids has the only municipally operated helicopter 
fleet in the State. In the 30 years that the Cedar Rapids 
Police Department's Aviation Department has been in operation, 
it runs from Minneapolis to Kansas City, to the Mississippi 
River on the East, and by Iowa's borders with Minnesota and 
Missouri. This area is home to approximately two-thirds of 
Iowa's population.
    The helicopter fleet, and the officers that operate and 
maintain it have been key in apprehending individuals with 
Federal and State warrants and prison escapees, as well as 
locating missing children and adults. The Cedar Rapids Police 
Department helicopter fleet assisted in 5,548 calls and 
directly enabled 130 arrests through the end of July of this 
year.
    The fleet has responded to nearly 3,000 calls and directly 
enabled 124 arrests throughout Eastern Iowa.
    The helicopter fleet played a key role in rescue efforts 
surrounding the severe flash flooding in our area June 4th that 
damaged more than 500 homes in the Cedar Rapids area alone.
    Thanks to dedicated rescue personnel and resources like the 
helicopter fleet, everyone was evacuated safely from homes 
surrounding the flood waters.
    The maintenance crew also maintains the St. Luke's Hospital 
LifeGuard, or MediVac, helicopter. In addition, the events of 
September 11, 2001, make the necessity of this fleet that much 
more apparent.
    Cedar Rapids Police Department has increased air patrols 
and surveillance over the Duane Arnold Energy Center, Iowa's 
only nuclear power facility. This has created a situation 
whereby the already aged fleet is being additionally taxed.
    Also, patrols have increased over the water pollution 
control and the water treatment facilities as well. These 
facilities serve not only Cedar Rapids but much of the metro 
area.
    The city of Cedar Rapids needs $5.1 million in Federal 
funding to replace the police department's helicopter fleet, 
which is nearly obsolete. These funds will assist in purchasing 
and equipping three new helicopters. We are close to being 
forced into a situation where these helicopters will be 
cannibalized in order to utilize parts that are out of 
production. I would just note that these are Vietnam-era 
helicopters, 1968 and 1969.
    Each time the President, Vice President or cabinet 
officials travel to Eastern Iowa, our helicopters are called on 
to provide protection; and for all these missions, we cannot 
charge the appropriate community or governmental entity for 
time or resources, because the helicopters are military 
surplus, and Federal Rules prohibit us from recouping the costs 
from what is a mutual-aid response on the part of the city of 
Cedar Rapids.
    As a parting comment, I want to inform you that the city of 
Cedar Rapids and the Linn County Board of Supervisors have 
provided and pledged nearly $1 million to fund a home for the 
National Mass Fatalities Institute in our city. This operation 
serves to aid in the coordination of activities, to protect 
public safety and to respond in the case of a catastrophic 
event.
    Federal funding for this operation is necessary. It will 
benefit people nationwide through the cost effectiveness of 
staff and resources to serve our country.
    Ladies and gentlemen, I want to thank you for what you do 
in deliberating over these issues and the funding connected 
with them. Much of it goes unnoticed, because no one sees the 
attack that never occurred or notices the life that was never 
in jeopardy.
    But we trust that because of the efforts you may have made 
here to learn today by listening, we will be a more safe and 
secure community, State and Nation.
    Thank you for the opportunity to share these remarks.
    [The prepared statement of Mr. Pate follows:]

    [GRAPHIC] [TIFF OMITTED] T7891.001
    
    [GRAPHIC] [TIFF OMITTED] T7891.002
    
    [GRAPHIC] [TIFF OMITTED] T7891.003
    
    [GRAPHIC] [TIFF OMITTED] T7891.004
    
    Mr. Horn. Thank you very much.
    And we now have Ned Wright, the Director of the Linn County 
Management Agency.
    Mr. Wright.
    Mr. Wright. Good afternoon, Mr. Chairman and members of the 
subcommittee, Congressman Ganske and Congressman Leach. Thank 
you for the opportunity to speak before this congressional 
subcommittee.
    As you stated, I am Ned Wright, I'm the Director of 
Emergency Management for Linn County, Iowa. My comments will 
address the perspective of this committee from a local level. 
My comments are my own and from my counterparts in the Iowa 
Emergency Management Association.
    The front line on the war on terrorism is right here at the 
local level. Lives will be saved or lost based on the initial 
response by local government assets. No matter what the program 
that is in place at the Federal or State level, the actions 
that will make a difference are at the local level.
    The basic principal of emergency response is, whatever the 
incident, the local jurisdiction will be the first on the 
scene. No matter what State and Federal resources are 
systemically available, it takes time to get these resources to 
the incident. The better prepared a local jurisdiction is to 
handle any event, the safer the community will be. This is not 
to say that State and Federal resources are not needed and that 
they don't do an outstanding job. They're just not always 
readily available.
    In the Midwest, our communities are protected by a 
partnership of paid and volunteer organizations, different 
systems but both professional in their own way. If we were to 
have an act of terrorism against any of our communities, the 
call for response will be met by all. This is a fact of life 
here, and we must ensure that the training and preparedness 
needs of full-time departments are met with the same vigor as 
those of our volunteer departments. This is a total-force 
concept.
    My counterparts and I are at the bottom of a big funnel as 
we address homeland security issues. It appears that at the 
Federal and State level, staffing for homeland security is 
growing. Policy and program initiatives are rolling off the 
presses. Speeches are being made, charts and graphs are 
everywhere, but at the end of the day, have any of these 
programs and initiatives made any first responder better 
trained, equipped or prepared to respond to the next event?
    We hear of the billions of dollars coming out of Congress 
to fight the war on terrorism. We're just starting to receive 
our nickel. As we approach the anniversary of September 11th, 
we are getting reports from researchers and consultants on what 
happened, what went right, what went wrong, and what could have 
been done better.
    I wonder how much money was spent to tell us what the 
police and fire did and did not do after the fact, and if that 
money had been spent to train and prepare these heroes, what a 
difference this could have made.
    We at the local level are responsible for the safety of our 
people, not the State and not the Federal Government. At the 
end of the event, when State and Federal resources return to 
their home locations, I am the guy who will see my friends and 
neighbors at Wal-Mart or at church. I'm the one who is asked 
why or why not something happened. I'm the one that's 
responsible for coordinating their safety, and I take that job 
very seriously. We must do all in our power to reverse the 
efforts in the war on terrorism and to fix the local problems 
before we expand the efforts at the State and Federal level.
    We are starting to see funds become available, but we are 
the last ones at the table. Since we are the front line, the 
soldiers in this effort, we need to be heard and listened to 
about our needs. We at the local level know what we need to do. 
We just don't need our hands tied and hindered from doing what 
we know is right.
    One size does not fit all. What works in New York City and 
Los Angeles may not be appropriate for Cedar Rapids and Iowa 
City. Congress needs to listen to our needs, and I appreciate 
you doing that by your visit here today. The Federal agencies 
responsible to you for these homeland security programs need to 
get out of Washington and to get out here and see what is 
needed and see how the existing programs are working before 
designing new ones.
    The State's first priority should be to get all local 
communities adequately staffed and provided with resources even 
though the local public can not see the need. Remember, no 
matter how great a comprehensive program is in Washington or in 
Des Moines, it will not be successful until local resources are 
available to put that program into place.
    In my written presentation, I allude to working hard in 
Linn County to address chemical, biological, and radiological 
issues. Much of our efforts have come from the bottom up and 
not the top down.
    My community leaders have made a commitment to protect the 
public by supporting the efforts of the Emergency Management 
Agency in coordinating community-wide training, education and 
preparedness efforts. My dream would be that the other 98 
counties would enjoy the same support and resources.
    But, at the same time, I must be the first to acknowledge 
that much of our success is based on the strong bond of 
partnership of over 25 years with the Duane Arnold Energy 
Center, which is Iowa's only nuclear power plant. Through their 
continued efforts and resources, we are one of the best 
prepared communities in the Midwest. Other Iowa communities are 
not so fortunate.
    We built on our successes, and that's why this community 
has initiated many of the early terrorism preparedness programs 
and other similar programs, because we knew what we needed to 
do to be prepared.
    As an example, we developed a model Mass Fatalities 
Incident Response Plan that led to the establishment of the 
National Mass Fatalities Institute, and we were one of the 
first mid-sized communities to address biological preparedness.
    I hope you will see that no matter what programs are 
developed at the Federal and State level, unless the local base 
is strong and solid, you cannot build on a successful homeland 
security program. Our mission has always been to protect our 
public from any hazard from tornadoes and floods to chemical 
releases and airplane crashes, and now we face terrorism as 
well.
    We will continue to do the best that we can with the 
resources we are provided. We only ask that you respect the 
local government to know what is best for each of our 
communities and to support these efforts that we feel are the 
best for our community.
    Through this support, we will be strong, and we will be 
prepared to respond to any emergency event, recover from that 
emergency and continue growing as a strong and vital community. 
We will be the backbone of our strong Nation.
    Thank you.
    [The prepared statement of Mr. Wright follows:]

    [GRAPHIC] [TIFF OMITTED] T7891.005
    
    [GRAPHIC] [TIFF OMITTED] T7891.006
    
    [GRAPHIC] [TIFF OMITTED] T7891.007
    
    [GRAPHIC] [TIFF OMITTED] T7891.008
    
    [GRAPHIC] [TIFF OMITTED] T7891.009
    
    [GRAPHIC] [TIFF OMITTED] T7891.010
    
    [GRAPHIC] [TIFF OMITTED] T7891.011
    
    [GRAPHIC] [TIFF OMITTED] T7891.012
    
    [GRAPHIC] [TIFF OMITTED] T7891.013
    
    [GRAPHIC] [TIFF OMITTED] T7891.014
    
    [GRAPHIC] [TIFF OMITTED] T7891.015
    
    [GRAPHIC] [TIFF OMITTED] T7891.016
    
    Mr. Horn. Thank you. And we appreciate that, Mr. Wright, 
right from the grass roots.
    Keith Erickson is the director of the Linn County 
Department of Public Health. So we have the Management Agency 
and the Public Health aspect.
    Mr. Erickson. I am Keith Erickson, Director of Linn County 
Public Health, located in Cedar Rapids, Iowa. I appreciate this 
opportunity to present testimony on how the Federal Government 
is assisting State and local governments in preparing for a 
potential attack involving biological, chemical or nuclear 
agents at this Field Hearing of the Subcommittee on Government 
Efficiency, Financial Management and Intergovernmental 
Relations from a local Public Health perspective.
    Concerns of the local Public Health officer:
    Local Public Health infrastructure must be strengthened in 
order to adequately respond to potential terrorist attacks, 
especially when involving biological agents. The Public Health 
infrastructure must be based upon core Public Health functions 
and the essential Public Health Services.
    This will involve training and supporting the current work 
force, hiring additional Public Health workers: for example, 
epidemiologists, Public Health planners, Public Health 
educators, information technology specialists, and improving 
electronic surveillance systems, laboratory capacity and 
improving local facilities.
    Funds allocated for this purpose will have to be dual use 
so as to respond not only to man-made acts of terrorism, but 
also to respond to the natural occurrence of emerging 
infectious diseases. This dual use is important in maintaining 
a high level of readiness and proficiency. The increased 
capacity and capability to do disease surveillance, an 
epidemiologist on a daily basis will prepare us to respond in a 
timely fashion to a bioterrorism event.
    Be reminded that the threat of agroterrorism in Iowa is 
significant. Any surveillance system must involve agriculture 
and veterinary medicine.
    The anthrax events and hoaxes after September 11, 2001 
demonstrated the need for Public Health to respond on a 24-
hour/7-day-a-week basis. Indeed, the expectation of our 
community partners, including fire, law enforcement, HAZMAT and 
emergency management personnel, is that Public Health will be 
actively involved in a biological event, even though we are 
organized on an 8-hour/5-day-a-week operation.
    In our local jurisdiction, we have been conducting 
emergency management drills for more than 25 years because of 
the Duane Arnold Energy Center, a nuclear power plant in Linn 
County. These drills, FEMA training and Nuclear Regulatory 
requirements have prepared Public Health and our community 
partners to respond to a nuclear event. This has provided a 
template for action to respond not only to nuclear but chemical 
and natural disasters as well.
    This was clearly demonstrated in July 1985, when Toxic 
Tuesday, a chemical fire at the old Sewage Treatment Plant, 
caused the evacuation of thousands of citizens from Cedar 
Rapids in the middle of the night. These experiences should be 
incorporated into any biological preparedness plans in the 
future.
    And I just want to show you the headlines from the Cedar 
Rapids Gazette which talks about mass evacuations in Cedar 
Rapids. I know the Congressmen remember this.
    I'd also piggyback on what the Mayor said. You'll notice 
the helicopter up here. I was in that helicopter. That was made 
available to Public Health to lay out the coordinates to 
coordinate the evacuation, and I thank the city of Cedar Rapids 
for making that available.
    Funding for these activities should be split into two 
systems: one to the State to address all 99 counties in a 
coordinated regional effort, and one directly to the 
metropolitan statistical areas of Iowa, based upon need.
    It is important that allocation of these funds be 
population-based, available when needed, and based upon a 
national set of goals and objectives with appropriate 
accountability.
    There are more than 3,000 local Public Health agencies in 
the United States. The National Association of County and City 
Health Officers is the national voice for local Public Health. 
I would urge that you listen to this voice in regard to 
domestic preparedness and bioterrorism.
    In summary, we have an unprecedented opportunity to 
strengthen local Public Health infrastructure so that it has 
the capacity to respond to both emerging infectious diseases 
and terrorist attack involving biologic, chemical or nuclear 
agents in a timely fashion. Provide local agencies with the 
resources to hire, train and support a Public Health work 
force, and we will protect the public's health.
    Thank you for this opportunity to present this testimony.
    Mr. Horn. Thank you. That's very helpful.
    We now have Chief Steve Havlik of the Cedar Rapids Fire 
Department.
    We're glad to have you here, Chief.
    Chief Havlik. Thank you.
    Thank you, distinguished members of today's subcommittee 
hearing, for allowing me to testify today. I would like to take 
this opportunity to express some thoughts and concerns related 
to weapons of mass destruction.
    We at the Cedar Rapids Fire Department are very grateful 
for the assistance we have received from the Domestic 
Preparedness Program sponsored by the Federal Government. These 
programs have given our Department the opportunity to 
participate in various training opportunities that have 
heightened our organization's awareness and capabilities. The 
training received has given us the ability to expand upon what 
we believe is a strong chemical response capability.
    Hazardous material response for our organization 
historically has been responding to incidental spills and 
leaks. We must now be prepared to address multi-dimensional 
hazards. Assistance from the Federal Government has allowed us 
to initiate the mandated procedures and training. This will 
help us better respond to incidents involving weapons of mass 
destruction.
    We have been privileged to be the beneficiary of a grant 
from the Department of Justice. This grant has provided Cedar 
Rapids Fire Department with some of the essential equipment 
needed to evaluate and respond to a possible terrorist attack. 
Aside from providing more opportunities for procurement of 
necessary equipment, there exists an increasing need for 
resources to maintain and buildupon our current capabilities.
    There are two very important issues we are currently 
addressing: What will be the funding source to provide for 
proper maintenance and upkeep for the equipment furnished, and 
how can we address the needed staffing costs associated with 
required training programs?
    There are appreciable costs associated with maintaining 
specific pieces of instrumentation. These expenditures will 
have to be budgeted for in the future. For example, replacing 
sensors and consumption of calibration gas is an ongoing 
requirement and can be an expenditure of approximately $1,000.
    Ultimately, the most urgent need is providing adequate 
staffing levels while personnel are engaged in training for 
response to these types of incidents.
    As part of our bargaining agreement, we compensate our 
personnel for their scheduled time, as well as additional time 
outside the normal work schedule. The training that is provided 
requires significant time beyond scheduled-duty assignments.
    Budgetary constraints have made it very challenging for 
departments such as ours to adequately fund for personnel costs 
for weapons of mass destruction training. As Fire Chief, I'm 
often faced with a difficult dilemma. I can ask our responders 
to participate in training utilizing our own personal 
resources, or I can cut response capabilities below mandated 
staffing levels to provide training time. Consequently, this 
has directly affected our ability to provide the manpower to 
properly respond to other emergencies.
    Oftentimes, our personnel go to great lengths to 
participate. Our firefighters have incurred personal costs as 
well as making family sacrifices to assure their participation 
and attendance. As Fire Chief, it is difficult to consistently 
ask members to make these sacrifices.
    Being located in the Heartland, agriculture is paramount to 
our economy. Many of the agricultural-based industries use and 
store chemicals. These chemicals enable them to process their 
product in a cost-effective manner. Fortunately, technology, 
innovation, and a strong commitment to process safety 
management have led to a responsible co-existence in our 
communities.
    Unfortunately, recent events have demonstrated that certain 
individuals and groups, extreme in their views and cold-blooded 
in their actions, can impact us in ways we never imagined.
    Iowa is one of the largest storers of chemicals that are 
toxic by inhalation. The chemical hazards that are inherent 
with an agricultural economy must be addressed and 
contingencies formulated to properly protect the public. When a 
bona fide threat is apparent, it is absolutely necessary for 
information to make its way to the jurisdictional agencies.
    When a potential chemical threat exists, a formal 
communication conduit must be assured. This enables us to move 
confidential information into the hands of responders without 
obstructions or delays. Communicating and sharing information 
such as publishing alerts on a secure, data- sharing network 
would prove invaluable to responding personnel.
    Decontamination remains a broad challenge. Responders need 
to comprehensively address the possibility of a nuclear, 
biological or energetic device in conjunction with a chemical 
event. These devices pose labor- and equipment-intensive 
circumstances. This type of terrorist activity presents unique 
challenges to the conventional decontamination process. 
Assistance is needed to provide decontamination equipment that 
is lightweight, mobile and has the ability to decontaminate 
large numbers effectively and efficiently.
    Additionally, assistance is needed for equipment that can 
perform in inclement weather and has capabilities to handle 
nonambulatory victims. Equipment with these characteristics is 
available through several manufacturers. However, they are 
cost-prohibitive for our agency due to budget constraints at 
this time and in the foreseeable future.
    Once properly equipped, our local responding agencies 
remain faced with logistical and communication hurdles. 
Cooperation and integration of response efforts within multiple 
agencies are very much needed. This includes initial response 
and advanced medical care, as well as assistance from Public 
Health agencies.
    To ensure a coordinated response, teamwork, communication 
and interagency training need improvement. Ultimately, this 
takes time, money and resources to reach the needed level of 
capability.
    Once again, I'd like to thank you for allowing me to offer 
this testimony to this subcommittee. Hopefully, I've 
communicated the compelling need to provide the vital resources 
that will support our current and future capabilities. These 
resources will better help us prepare for and respond to 
incidents involving weapons of mass destruction.
    Thank you.
    Mr. Horn. Thank you, Chief.
    [The prepared statement of Chief Havlik follows:]

    [GRAPHIC] [TIFF OMITTED] T7891.017
    
    [GRAPHIC] [TIFF OMITTED] T7891.018
    
    [GRAPHIC] [TIFF OMITTED] T7891.019
    
    [GRAPHIC] [TIFF OMITTED] T7891.020
    
    [GRAPHIC] [TIFF OMITTED] T7891.021
    
    [GRAPHIC] [TIFF OMITTED] T7891.022
    
    [GRAPHIC] [TIFF OMITTED] T7891.023
    
    Mr. Horn. Our next presenter is Douglas A. Feil, director, 
Environmental Training Programs, Kirkwood Community College, 
Cedar Rapids, IA.
    Mr. Feil. Thank you, Mr. Chairman, for this opportunity to 
address you on what our Nation's Federal Government is doing 
and has not yet had the opportunity to do to assist State and 
local governments in preparing for potential terrorist attack.
    Kirkwood Community College has developed a partnership with 
our city, local industry, the county, and the county Emergency 
Management Agency and several of Kirkwood's federally funded 
training programs.
    The goal of the partnership is to build and operate a 
multi-use Community Training and Response Center to prepare and 
direct our community's response to real and potential terrorist 
attack and provide a training space for several Kirkwood 
programs that have a national constituency.
    The proposed center will provide an emergency operation 
center for Linn County area and office space for the Linn 
County Emergency Management Agency. It will also provide office 
space for the ``first in the Nation'' CDC-funded National Mass 
Fatalities Institute that has a mission to prepare communities 
to respond to and recover from mass fatalities incidents.
    This institute provides advanced-level response training to 
prepare our emergency planners and responders to plan for and 
respond to disasters.
    The center will also provide classrooms, computer lab and 
auditorium for the Hazardous Materials Training and Research 
Institute. The purpose of this federally funded institute is to 
promote worker protection and the maintenance of a clean and 
safe environment through education and training. This includes 
training on response to and the cleanup after a nuclear, 
chemical or biological attack.
    Since 1987, HMTRI has trained over 120,000 workers with our 
network of 80 partner colleges across this Nation.
    The center will also provide office space for CRADLE, an 
innovative recordkeeping and student assessment center created 
in direct response to the distance conferencing, education and 
training needs of the region driven by homeland security 
issues. We will soon be of the ability to record and track 
those prepared to assist in a local, State or national 
emergency.
    The mission of the Community Training and Response Center 
is to draw upon the unique strengths of the organizations it 
houses in order to prepare communities across the country for a 
skilled response to emergency situations and provide facilities 
for a coordinated response to real emergencies in Eastern Iowa.
    The Community Training and Response Center will be a $4 
million, 16,000-square-foot hardened facility to be built on 
the Kirkwood Community College campus. The center will leverage 
resources of college and community operations that have similar 
missions. In the center, they will share common facilities and 
equipment to create an efficient and effective regional 
response that brings benefits to the college, industry, the 
city, the county, the State and the Federal Government.
    At the local level, the efficiency and effectiveness of 
this approach has been recognized, and 50 percent of the $4 
million facility cost has already been pledged. Now the Federal 
Government has an opportunity to assist the State of Iowa and 
our local governments in funding the final 50 percent of the 
project.
    All of the facility's users have similar missions that 
naturally complement each other. Their personnel have similar 
skills that can support the missions of all users in a time of 
need. Each organization is a ``best practices'' showcase. Co-
locating the operations maximizes the best qualities of each 
while effectively using taxpayer money. The organizations will 
provide a synergy of time, talent and resources for the 
betterment of the local community and the Nation.
    We ask you to support Federal funding of this multi-use 
emergency response and training facility for Eastern Iowa and 
our country. We believe this dual-use facility serves as a 
model for other communities focused on preparing for terrorist 
attack.
    Thank you.
    [The prepared statement of Mr. Feil follows:]

    [GRAPHIC] [TIFF OMITTED] T7891.024
    
    [GRAPHIC] [TIFF OMITTED] T7891.025
    
    [GRAPHIC] [TIFF OMITTED] T7891.026
    
    [GRAPHIC] [TIFF OMITTED] T7891.027
    
    [GRAPHIC] [TIFF OMITTED] T7891.028
    
    [GRAPHIC] [TIFF OMITTED] T7891.029
    
    [GRAPHIC] [TIFF OMITTED] T7891.030
    
    [GRAPHIC] [TIFF OMITTED] T7891.031
    
    [GRAPHIC] [TIFF OMITTED] T7891.032
    
    [GRAPHIC] [TIFF OMITTED] T7891.033
    
    [GRAPHIC] [TIFF OMITTED] T7891.034
    
    [GRAPHIC] [TIFF OMITTED] T7891.035
    
    [GRAPHIC] [TIFF OMITTED] T7891.036
    
    [GRAPHIC] [TIFF OMITTED] T7891.037
    
    [GRAPHIC] [TIFF OMITTED] T7891.038
    
    [GRAPHIC] [TIFF OMITTED] T7891.039
    
    [GRAPHIC] [TIFF OMITTED] T7891.040
    
    [GRAPHIC] [TIFF OMITTED] T7891.041
    
    Mr. Horn. Thank you. We now have our last presenter of this 
panel, and that's Bruce Lacy, the nuclear business and assets 
manager for Alliant Energy, Duane Arnold Energy Center.
    Thanks for coming, Mr. Lacy.
    Mr. Lacy. Thank you very much for the opportunity to speak. 
I apologize that, given the period of time in which I knew I 
was going to be here today, I didn't have an opportunity to 
give you some paper to read along with, but--I represent the 
owners of the Duane Arnold Energy Center and those people who 
are responsible for its operation, Iowa's only electric 
generating plant that received its energy from the splitting of 
the atom. We've been a safe and reliable part of the electric 
energy infrastructure here in Eastern Iowa since 1974, and I 
wanted to speak directly to the issue of the security of our 
facility and the role that we have in the community.
    First off, I'd like to say I appreciate very much the prior 
comments acknowledging the role that we have played supporting 
the community in the development of emergency preparedness. 
Local, county, State, Kirkwood, all of these are people that 
we've been working with for nearly two decades in terms of 
emergency preparedness, and we're proud of our role in that.
    Specifically regarding security at our nuclear facility, 
security is not a new issue for us. It was in the late 1970's 
that security became a major function. Some of you who are 
familiar with the community for more than two decades might 
remember the date when the Duane Arnold plant didn't have 
guards, didn't have fences, didn't have Jersey barriers, things 
like this.
    That all started showing up in 1979. And we have 
systematically made improvements both in the physical design of 
security measures and in the staffing ever since then. I think 
a very good example of that is the bombing of the Marine 
barracks in Beirut. That resulted in the initial placement of 
Jersey barriers around the plant that supplemented the already-
existing fences and professional security force that we had. So 
we were already very well prepared prior to September 11th.
    But nothing is ever perfect, nothing is ever good enough. 
September 11th taught us all messages; and after September 
11th, we, like everybody else, further improved. It's just, the 
platform from which we were starting at the nuclear plant was 
already much higher and much better established than virtually 
any other facilities around the Nation.
    And I speak in that regard on behalf of all of the 
commercial electric generating plants in the Nation. It's 
something that we as a Nation can be proud of.
    We take our responsibility very seriously.
    Some of the improvements that we've made, I will not go 
into detail on that, but we have increased our staff. We've 
increased certain types of physical barriers associated with 
the power plant. In a short quote from our security director at 
the plant, I like to think in terms of the four D's.
    The first D is to deter. And by being well prepared, you 
deter people from even thinking about coming to your facility 
and doing something wrong.
    Second, for those who are unwise and not deterred, then you 
want to detect them. We've done various things that will allow 
us to detect hostile parties much earlier than what we were 
prepared to detect before.
    Third, you want to defend the facility. By the addition of 
staff and various measures, we've further enhanced our ability 
to defend the facility.
    And, last, and the most serious point is, should you fail 
on the first three D's, be prepared to defeat on the fourth D.
    We've made improvements in all of these areas associated 
with our power plant.
    I would like to offer the commercial U.S. electric 
generating industry as a model for the Nation in terms of 
preparedness, both before and after September 11th, and as a 
model of cooperation with our local communities, again, 
appreciating the earlier remarks on this panel for what has 
been accomplished in Eastern Iowa, and I would say that is no 
exception across the Nation to other communities that have 
nuclear power plants in their midst.
    As Congress goes forward, I strongly ask that you rely on 
the best information available regarding the types of potential 
threats that you want to direct resources and help to.
    In the case of my own industry, I am very well aware that 
it is easy to be misunderstood. That the electric generating 
activities that take place at our facility are just one of many 
aspects of nuclear-related issues that might take place around 
the country, but that we should not make decisions based on 
fear or manipulation of facts in our response and that, as the 
Congress has the opportunity to set forth policies, programs 
and provide resources, that not be done in a manner that is 
discriminatory, again, based on fear or inappropriate 
perception.
    Now, those of us who own the plant and are responsible for 
the operation of the plant, we take great responsibility and 
feel great responsibility in this to ensure that it is a safe 
and securely operated facility.
    I want to say that we're very proud of the people--it's 
ultimately people, as I'm sure everybody on this panel would 
agree--it's ultimately people that make the difference. We have 
a lot of outstanding people that we should be proud of at our 
power plant, both in the operation of the facility and in the 
security of the facility.
    I'm very pleased at the cooperation and the coordination of 
local, State and Federal, all levels; and I'm confident that 
the people who live in our community will not be subjected to 
any threat of terrorist attack associated with activities at 
our facility based on what we were doing before September 11th, 
based on the things that we've done after September 11th and 
probably, most fundamentally, on the commitment that we all 
have to always learn and always seek a better way.
    As time goes on, we're going to learn and we're going to 
even further improve, if we're going to keep our community 
safe, as part of the community.
    So, in conclusion, we're counting on Congress to direct the 
public resources and the public policy in the direction most in 
need of help; and it appears to me that is for our local, State 
and Federal infrastructure.
    I'm not asking for any money. Based on rational and 
objective, well-thought-out considerations of the threat, and I 
commend you to recognize, again, the outstanding example of the 
industry that I'm part of, the commercial nuclear electric 
generating industry in this Nation, be seen as a model for 
success not just in communities with nuclear plants but 
communities that may have other issues that require an equal 
level or comparable level of attention.
    I want to thank you very much for the opportunity to speak 
today.
    Mr. Horn. Well, thank you. And now that we've got the 
individual statements, we're going to turn to questions, and 
each Congressman will have 10 minutes for questioning, and 
we'll rotate it until everybody is exhausted. We still have a 
panel two to come with some very exciting things.
    So, the gentleman from Iowa, Mr. Leach, the senior member, 
the one we all go to to get advice, so--he's sort of Socrates.
    Mr. Leach. Thank you, Steve.
    Let me say, as I'm sitting and listening to this group, I'm 
really struck by the high degree of professionalism. I'm also 
struck by the notion that we have this society in which there 
are differing levels of Government. You have local government, 
State government and National Government, and then different 
elements.
    And I am really impressed with Linn County. I must tell all 
of you what a wonderful degree of thoughtfulness you've put 
into where you are.
    And then, to a College President/Chairman, let me say that, 
last year, Kirkwood Community College was rated the No. 1 
community college in the United States; and we're very proud of 
the College in many areas, but you are now becoming a leader in 
a particular area, in preparedness.
    And then, interestingly, when we think about these levels 
of government--and this is going to apply to the next panel--
America also needs some regional responses. That is, there's a 
local response, a national response, a State response.
    As I look at the Kirkwood proposal, it's basically one that 
is a regional or national dimension. In fact, your Mass 
Fatalities Center is a national program. Your other efforts in 
the preparedness area really fit into a regional context.
    So, in terms of suggestions, for the report of this 
subcommittee, Mr. Chairman, I would like to underscore the 
regionality dimension of preparedness in programs like 
Kirkwood's, and potentially certain things in the State 
laboratories I think can be considered in a regional dimension 
as well as a State dimension.
    In fact, when we go with the issues of communication, we 
all know there--sometimes within agencies, and we had a problem 
within the FBI with that information going upstream and 
downstream and how it's being treated, then, between agencies.
    But the community colleges, as, again, symbolized by 
Kirkwood, and symbolized by the State of Iowa with certain 
commitments the State has made, have the best communications 
between institutions of any in the country. And I think that's 
a model that also ought to be a part of--although it's kind of 
implicit in your particular approaches.
    But I really have one precise question, and that relates to 
the Kirkwood issue, and that is, just what is it that you're 
requesting from the Government in terms of funding, in the near 
term and then on a sustaining basis?
    Mr. Feil. In the near term, we have proposed this $4 
million facility. Our local, State, county and industry have 
come up with a pledge of 50 percent of that.
    We are looking for assistance, either directly from the 
Federal Government or through the State, an additional $2 
million to build this facility that will both provide the 
emergency response capabilities within the area and provide 
training within the region.
    In a long-term basis, we are looking for continual 
assistance in funding both our National Mass Fatalities 
Institute and the various programs that the Hazardous Materials 
Training and Research Institute and CRADLE have in training, 
and we assist community colleges across the Nation to provide 
training in their own, say, backyard, in their own localities, 
and we have community colleges from across the Nation that come 
to us, and we share Iowa's resources with them, and they take 
them home to share with their community; so we are looking for 
assistance there over a long-term basis.
    Mr. Leach. I appreciate that.
    And I would also say to the chairman, again, as you 
prepared in your report, there are aspects that are deeply 
scientific and deeply health care related----
    Mr. Feil. Yes.
    Mr. Leach [continuing]. At a theoretical level in 
preparedness; but the community college system in the United 
States, which is unique in the world, is probably the best 
system in potential for training at the practical level of 
local communities, and I think it's something that we shouldn't 
lose sight of and we ought to be looking for benchmark kinds of 
approaches.
    And as I look at what Kirkwood has been developing, I'm 
exceptionally impressed as a national model, not simply as a 
local model.
    Before my time expires, I just want to ask one question of 
Mr. Lacy.
    You've given a very strong statement about what your 
facility in Palo has done in terms of security, and you've 
mentioned you are not looking for Federal funds, but are there 
things that Congress and the executive branch can be doing that 
could be helpful to your facility and your kind of facility at 
this time?
    Mr. Lacy. Thank you very much for that question. And, yes, 
indeed, there are some suggestions that I would offer there.
    We understand and accept that we have a responsibility to 
provide some level of protection at our site. I understand that 
there's debate by some as to whether that should be changed. I 
would say that there needs to be Federal legislation, not only 
just for our facility, but maybe other facilities, where people 
are expecting a law enforcement-type capability associated with 
the facility. Then we need Federal legislation to support 
authority for some kind of law enforcement function at the 
site, and that does not exist right now for our facility.
    I think a second area has to do with background 
investigations of personnel. Frankly, given the regulatory 
regime and the state of Federal laws, it's easier for a gun 
dealer to do a background investigation on somebody than it is 
for us. I believe that deserves legislative attention.
    And a third area where I believe Federal activity would be 
appropriate, and this may be the most difficult of all, is the 
Homeland Security Office and their issuance of threat 
advisories. I think there's opportunity there and probably some 
legislative support appropriate for them to help them issue 
more meaningful threat advisories.
    I mean, there's kind of a limit to the number of times that 
you can say you need to have things at the highest, the most 
high, the very high, the absolutely high. Somehow or other, 
that needs to be turned into a more meaningful thing.
    And for whatever facilities that the Nation feels it needs 
to provide individual protection as we accept responsibility 
for at our nuclear electric plant, the Federal legislation 
needs to be respectful that we can't expect those individual 
facilities to be prepared to defend against things that are 
fundamentally acts of war. At some point, an act of war becomes 
a national issue, not a local issue.
    So those are the suggestions that I would offer.
    Thank you very much for the question.
    Mr. Leach. Thank you, Mr. Lacy.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you.
    And now we'll yield 10 minutes for questioning by your 
other fine Congressman, and that's Mr. Ganske.
    Mr. Ganske. Thank you, Mr. Chairman. I thank the panel.
    You know, I detected something of a common theme from all 
of your testimony, and that was, please give us help, but watch 
out for the unfunded mandates.
    Is that fair to say?
    I see the Mayor of Cedar Rapids nodding his head in full 
agreement right there.
    The way that we wrote the Bioterrorism Preparedness Bill 
was designed to do so. We have a proviso that for a State to 
apply for grants, then there needs to be a State preparedness 
plan.
    So I was disappointed to find out just before the hearing 
that Ellen Gordon, the Homeland Security Advisor for the State 
of Iowa, did not show up today--apparently she had some 
conflicts, although she had apparently indicated she would be 
here previously--because I was interested in getting some 
information from her on how the State Bioterrorism Preparedness 
Plan is coming along? I mean, is it adequate, is the State 
getting cooperation from the localities, are the localities 
getting input into the State, is there any way that we can help 
in that regard?
    Now, as I mentioned before in my statement, we have 
actually budgeted about $4.4 billion for these types and other 
types of grants that you're looking at applying for. We need to 
go through an appropriations process, we need to get that money 
into the pipeline.
    But it's important for you, as we've gotten some indication 
from this afternoon, that you are also making progress in terms 
of your analysis of what your needs are.
    Chief Havlik, I must say that I was very impressed with my 
visit recently to the Cedar Rapids Fire Department. The level 
of commitment of the men and women that you have working in 
that department, Mayor, I think they're doing a great job.
    And, Mr. Lacy, you're working with them, and others have 
mentioned--Mr. Wright, for instance--the fact that Cedar Rapids 
has been a little in the forefront of some of this planning 
simply because you have a nuclear power plant located, really, 
right up to the city limits for metropolitan Cedar Rapids.
    Mayor Pate, maybe you can tell me, it seems to me like that 
nuclear power plant is located closer to Cedar Rapids than just 
about any other power plant in the United States. Is that an 
accurate impression?
    Mayor Pate. I'm not sure how every plant is in the country, 
but it's distinctly close to us, and it's been a significant 
partner in our efforts to respond with good planning.
    And, if I could, Congressman, I just want to give credit 
where it's due. I think, as Mr. Wright mentioned, it was a 
template for us; but, you know, we, as an emergency management 
group collectively, do continually drills.
    I'm trying to think--this year alone, we did the airport, 
in response, you've done the smallpox, three nuclear power 
plants, an earthquake; so, you know, we're continuing to drill 
and drill and drill and try to prepare for what might come our 
way.
    Mr. Ganske. Would anyone on the panel like to address this 
particular question?
    Mr. Horn. I think Mr. Erickson.
    Mr. Ganske. Mr. Erickson, you were nodding your assent 
about the proximity of the power plant?
    Mr. Erickson. I believe that if you take the 10-mile EPZ 
that runs down the middle of First Avenue in Cedar Rapids, and 
since it splits the city, you have to take the whole city, so 
that means there's a greater population within a 10-mile EPZ of 
a nuclear power plant at Duane Arnold than any other facility 
in the country.
    Mr. Ganske. In the country?
    Mr. Erickson. Yes.
    Mr. Ganske. Mr. Lacy, I have to ask this question, because 
I've toured the power plant. I know that you're running out of 
storage capacity. Do you have an opinion on what we should do 
with that spent nuclear fuel, and what would be the safest 
thing to do with it?
    Mr. Lacy. Yes, If I might just supplement the two prior 
responses. The Duane Arnold Energy Center does not have the 
largest population, although it certainly has one of the 
largest, so, I--not to contradict, but I think we're No. 10 or 
something like that. I think there are nine other facilities 
that have a higher populated area than we do. But, certainly--
--
    Mr. Ganske. The proximity is very close.
    Mr. Lacy. Yes, certainly, proximity and high population. 
And I think that's a strong motivation for us, as our role in 
the community, for this cooperation that we talk about on that.
    With regard to the used fuel that has been safely stored at 
our facility since we started up in 1994, we are developing 
additional storage capability at our site for the safe storage 
of that fuel, and that storage will be just as safe there as it 
is in our existing facility at the site.
    I want to commend the U.S. Congress for their action 
approximately a month and a half ago supporting the President's 
decision to go ahead and develop a permanent repository for the 
storage of used fuel at Yucca Mountain, Nevada. And while I 
will always state with confidence that the fuel on an interim 
basis is safely stored at our facility, we're talking about 
decades of interim storage.
    If you're going to look at centuries of permanent storage, 
consolidation at a single, well-designed, well- secured site is 
something that is absolutely the right thing to do. It's 
something that we as a Nation are fortunate that we have the 
opportunity to go forward on, so I want to thank the Congress 
for their support in that area.
    Mr. Ganske. Mayor Pate, you were talking about several 
infrastructure needs for Cedar Rapids. Are you in the process 
of putting together a list of those needs in preparation, for 
presenting grant proposals for the additional spending that we 
will provide from the Federal Government?
    Mayor Pate. Actually, Congressman, we've already done that 
and submitted it to our Iowa congressional delegation for their 
review, and we'll be following up with that.
    In fact, I'll be in Washington I believe the 9th or 10th of 
September--I don't have a calendar in front of me--in an effort 
to reinforce some of these costs and priorities, and I'll make 
sure that a copy is forwarded to your special attention, too, 
but it itemizes, goes through several of the items I mentioned 
here, goes into more detail on the National Mass Fatalities 
Facility and, of course, some of the other expenses that we're 
incurring right now.
    The Fire Chief didn't go into a lot of detail, but we've 
spent--and I'm sure other fire departments have--extensive 
amount of money on response to anthrax calls when that was 
going on, and those were costs we absorbed internally, and, 
again, trying to better prepare for those things, those costs 
are there, and I'll make sure that those are clearly spelled 
out for you and the rest of the delegation.
    Mr. Ganske. Chief Havlik, you have a vehicle there, I 
believe, in your department that is able to respond to 
chemical-type contaminations. Can you describe that a little 
bit?
    Chief Havlik. Well, it's actually a converted pop truck/ 
vehicle that we've converted into our Special Operations Unit, 
and it contains all our hazardous material, all our high- and 
low-angle, confined space, water-rescue equipment, so it's 
really a very specialized vehicle. It covers a lot of different 
areas in our department, but we do use it quite a bit, and we 
actually would like to get something a little newer and a 
little bigger that we could actually--we have got so much 
equipment, we don't have room for it in that vehicle, but it is 
very versatile, does a good job for us. You'd be surprised how 
many special-operations calls we do have in a city with, 
obviously, the river running through it and so forth, so--it's 
a very good vehicle and it gets quite a bit of use.
    Mr. Ganske. Now, in Japan in 1995, in a subway, there was a 
chemical attack using serin gas. Let's just say that there were 
a terrorist attack at some major gathering in Cedar Rapids, and 
so you were called to respond, and you got there and you saw an 
awful lot of people on the ground. What would you do? How would 
you activate the community services to handle 50, 60, 100 
people that could be injured at one time?
    Chief Havlik. Well, first of all, we would initiate an 
incident command system which we use exclusively on the fire 
department, and we would get all the players involved that 
would be able to make choices. Maybe somebody from the council, 
Linn County Health, police department, fire, all the 
departments, Ned Wright from EMA, all the departments that 
would have input, and get together in one spot so we could make 
decisions based on the events that were happening.
    We have some equipment, some monitors, that we've received 
from the Federal Government--actually, a Department of Justice 
grant. We would be able to take this equipment and, hopefully, 
identify the product that we're dealing with. That would be the 
first step, identify what it is.
    And then we have some resources. We should be able to find 
out what we need to do, how far we need to evacuate, what 
resources we need to take care of that situation.
    But any time something like that is released, it's going to 
cause some major problems. The main reason there, it's going to 
take awhile just to identify what the product is.
    But we do have some equipment that we just received, and 
we've been playing with it a little bit, and it's some stuff 
that's definitely going to help us identify the product and 
help us determine what to do.
    Mr. Ganske. So would your special team show up in full 
contamination suits?
    Chief Havlik. Yes. We have the Level A, Level B, all types 
of suits. We have a very excellent HAZMAT team, and they would 
definitely show up, and they would be the ones to actually try 
to mitigate the situation.
    Mr. Ganske. How many people would be in a team like that?
    Chief Havlik. Well, they go in in teams of two, but we have 
about 35 members in our department that are cross-trained in 
all the different disciplines I mentioned, so we have a pretty 
good-sized HAZMAT team, and we have some excellent equipment 
also.
    Mr. Ganske. But, really, what you're pointing out is that, 
when a team of two arrives, and you may have a room like this--
--
    Chief Havlik. Sure.
    Mr. Ganske [continuing]. You're going to need a lot of 
help, you're going to need pull people out, get extra people 
there, you're going to need to have additional equipment. You 
can't just call people in and have them contaminated as well.
    Chief Havlik. Right.
    Mr. Ganske. You're talking about what hospitals have told 
us, on a physical plant level, as well as personnel, and that 
is that you need additional help to be able to handle what we 
would call a surge.
    Chief Havlik. Yes, I agree.
    Mr. Ganske. Not just a truck turning over and having some 
chemicals----
    Chief Havlik. Yes. Our HAZMAT people, our technicians, 
would be able to go inside the business or where the truck 
turned over and actually try to mitigate that, but we're going 
to need people in the other zones to take the people as they 
come out to decontaminate them and so forth, so it is a very 
labor intense-type situation to handle something like that.
    Mr. Ganske. Now, has anyone talked about our National Guard 
involvement in any of this?
    Mr. Wright. Congressman, just speaking from that, we have 
been working with our civil support team in Des Moines, and 
they participated in our smallpox exercises and our other 
training.
    But, as I mentioned, they're several hours away, and a lot 
of the things that we're looking at right now is ensuring that 
even though these--support is there, we've got support not only 
in Des Moines and Kansas City and other places within this 
total response system, but for the first several hours, this is 
a local responsibility.
    One of the things that we've been doing is training using 
all of our resources, not only within the city and the county, 
to be able to meet these things, to ensure that our first 
responders--and when we talk ``first responders,'' sometimes 
we're talking about law enforcement, fire and EMS, but we're 
also talking about the Red Cross, Emergency Management, Public 
Works, so there's a lot of people that would be coming into 
play on this. And we're looking at the resources to provide 
training from across the board, not just for the entry teams.
    We have been training and preparing and equipping our two 
hospitals, because we knew that they also needed that, whether 
it was weapons of mass destruction, but, as we mentioned, all 
the chemicals that we have here. We're really looking more at a 
potential target being the chemicals that we already have 
existing just being released into the public, not something 
such as the Oklahoma City, where it was brought into the 
community.
    But we are looking at training across the board, and we are 
using Kirkwood and other opportunities that we have to spread 
that training around; and through our mutual aid, we've got 20 
fire departments in Linn County, three of which are paid, the 
rest are volunteers. We are trying to make sure that those, 
which was the second wave, are also trained, because it does no 
good for them to also get to a scene and not have the proper 
equipment. If they can just look at it from afar, that doesn't 
do any good.
    So that's one of the efforts we're looking at, is to 
provide those resources across the board just because of the 
risks that we have in our community.
    Mr. Ganske. I thank you.
    Thank you, Mr. Chairman.
    Mr. Horn. Does Mr. Leach have any other further questions?
    Mr. Leach. No.
    Mr. Horn. OK. We will now, then, have the panel 2 come 
forward: Dr. Mary J. R. Gilchrist, Director, University of Iowa 
Hygienic Laboratory; Christopher G. Atchison, Associate Dean 
for Public Health Practice, College of Public Health, 
University of Iowa; Dr. Manjit Misra, Director, Seed Sciences, 
Iowa State University; Richard Hainje, Director, Region VII of 
the FEMA, the Federal Emergency Management Agency; James F. 
Bogner, Special Agent in Charge, Omaha Division, Federal Bureau 
of Investigation; and then our wrap-up person which we always 
use, and that will be Mr. Paul L. Posner, the Managing 
Director, Federal Budget Issues, Strategic Issues, U.S. General 
Accounting Office, which reports to the Comptroller General of 
the United States, has a very fine group here and all around 
the country, and we ask them to say, are we missing anything. 
So that will be panel two.
    If you will stand up and raise your right hand, we'll have 
you take the oath. And any staff that go with you, just bring 
them in, too, so we don't have to go through this again.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all six witnesses have 
affirmed.
    So we will start here with Dr. Gilchrist, and we're 
delighted to have you here.

STATEMENTS OF MARY J.R. GILCHRIST, DIRECTOR, UNIVERSITY OF IOWA 
 HYGIENIC LABORATORY; CHRISTOPHER G. ATCHISON, ASSOCIATE DEAN 
     FOR PUBLIC HEALTH PRACTICE, COLLEGE OF PUBLIC HEALTH, 
UNIVERSITY OF IOWA; DR. MANJIT MISRA, DIRECTOR, SEED SCIENCES, 
IOWA STATE UNIVERSITY; RICHARD HAINJE, DIRECTOR, REGION VII OF 
  THE FEMA, THE FEDERAL EMERGENCY MANAGEMENT AGENCY; JAMES F. 
BOGNER, SPECIAL AGENT IN CHARGE, OMAHA DIVISION, FEDERAL BUREAU 
   OF INVESTIGATION; AND PAUL L. POSNER, MANAGING DIRECTOR, 
     FEDERAL BUDGET ISSUES, STRATEGIC ISSUES, U.S. GENERAL 
                       ACCOUNTING OFFICE

    Ms. Gilchrist. Mr. Chairman, and distinguished members of 
the Iowa delegation, thank you for this opportunity to provide 
testimony regarding the Federal role in support of local and 
State preparedness for bioterrorism, chemical terrorism and 
nuclear terrorism.
    The University Hygienic Laboratory, which I direct, is a 
member of the LRN, the bioterrorism response network instituted 
by the CDC and the Association of Public Health Laboratories. 
The Laboratory Response Network was formed during the years 
1999 through 2001, when we met our first real challenge dealing 
with anthrax letters and many thousands of hoaxes and perceived 
threats. We were modestly funded during those years of 
preparation.
    Our laboratory was funded for $100,000 last year to meet 
the threat of bioterrorism. One industry alone told us that we 
had saved them ``millions of dollars,'' because our testing 
kept their assembly lines running when questionable powders 
were detected on devices and parts.
    Because we served our local populace, we stretched 
ourselves far beyond capacity. We would not expect a remote 
laboratory serving many jurisdictions to have done as well. I 
recognize and honor the Federal Government for its wisdom in 
making bioterrorism response a local issue for the 
laboratories.
    Across the country, the LRN tested thousands of specimens 
and allayed much fear and panic, but it did not serve our 
populace fully. In Iowa, those who were not well served must 
balance our success stories. Because we had limited resources, 
law enforcement and local communities evaluated each case and 
ruled out powders that did not constitute a credible threat.
    We understand that some powders that were not tested, while 
not a real health threat, caused panic and shutdown of assembly 
lines at a cost of hundreds of thousands of dollars. It's good 
to note that our funding has been increased by some 15 fold, to 
approximately $1.5 million this year, and we are hiring 
additional staff so we can provide broader testing. We were 
lucky that our wake-up call involved few who were truly ill, 
and we managed to minimize fear and panic in the situation of 
perceived threat that swept our country.
    The Government was wise several years ago when it abandoned 
its concept of solely providing regional laboratory support and 
instead funded bioterrorism response laboratories in each 
State. Capacity for local response to bioterrorism is critical. 
When airlines shut down or refuse to carry specimens perceived 
to be risky, a laboratory must be available within driving 
distance of a few hours.
    No matter the means of transport, the turnaround time would 
be increased if regional laboratories were instituted for any 
subset of the testing. Now, our laboratory is called a regional 
laboratory for surge capacity, but we don't displace the 
capacity of the local laboratory for basic testing.
    I'm concerned that we need smallpox testing in our States. 
In the event of a smallpox threat, every rash will be suspected 
to be a case of smallpox. Specimens sent out of State will mean 
increased turnaround time and costs of health care to those who 
are ill or exposed. Moreover, fear will be prolonged beyond 
need. We must be able to do the testing locally.
    I have great concern about the need to bring local capacity 
to the States for the detection of chemical and nuclear 
threats. When a powder is found, its identity as a biological, 
chemical or nuclear agent is not obvious until it has been 
tested. Even if labeled as anthrax, it might be a chemical 
agent or a mix of biological and chemical and even nuclear 
materials.
    The capacity for detection and identification of the three 
types of agents should be present in each lab for at least two 
reasons:
    Firstly, it may not be possible to split a small specimen, 
and tandem testing in different facilities would require too 
much time.
    Second, a mixed specimen would risk the safety of the 
laboratory people who could only identify one type of agent and 
could not safely handle the other types.
    The responsibility for testing for chemical agents is split 
at the current time. The EPA has primary responsibility for 
testing for chemical agents and environmental samples, and the 
National Center for Environmental Health takes the lead if the 
material is a clinical specimen such as blood or urine.
    The matrix in which the specimen occurs, e.g., blood or 
soil or water, may play some role in the extraction of the 
sample, but the identification of the chemical is unified by 
the need for sophisticated instrumentation that will identify 
the agent, whether from environmental or clinical samples. 
Currently there is no program in place to test environmental 
samples, and this is a major gap.
    The NCEH has begun the process of placing testing in 
localities by providing funding to 5 pilot States and planning 
grants to 25 States that are planning to be engaged in 
biomonitoring in the future.
    I advocate that the LRN concept be expanded to include 
chemical testing and nuclear testing. The food laboratories of 
the Nation have asked to join the LRN, as have many others. Let 
us make this testing universal so that in the event of an 
outbreak, chaos does not reign, because the type of test that 
is done dictates where the specimen must be delivered and the 
identity of the laboratory where the result is available.
    Thank you very much for your interest in the laboratory 
component of our response to terrorism.
    [The prepared statement of Ms. Gilchrist follows:]

    [GRAPHIC] [TIFF OMITTED] T7891.042
    
    [GRAPHIC] [TIFF OMITTED] T7891.043
    
    [GRAPHIC] [TIFF OMITTED] T7891.044
    
    [GRAPHIC] [TIFF OMITTED] T7891.045
    
    [GRAPHIC] [TIFF OMITTED] T7891.046
    
    Mr. Horn. Thank you. We appreciate it.
    Maybe some of you didn't hear, because you weren't here at 
the first panel, but we have a little problem here on the 
flights. Our 6:30 flight has been canceled to get us to Denver, 
where we've got a hearing tomorrow, and we must make the 5 
o'clock flight; and we can leave it in good hands, but it's a 
little difficult; and so, whence I mentioned to the first 
panel, the minute I put your name on there, that's--a full 
statement is already in the record at that point, and we need 
to just simply summarize it. We can't read it, and we've got to 
talk from the heart. Much better anyhow.
    So, Christopher Atchison, associate dean for public health 
practice, College of Public Health at the University of Iowa.
    Mr. Atchison. Thank you, Mr. Chairman and members of the 
committee.
    If the goal of terrorism is to disrupt a society, there's 
little question that an assault on America's Heartland would 
have a significant effect not only on the region but on the 
Nation. As the former Director of the Centers for Disease 
Control, Dr. Jeff Koplan has said, ``Either we are all 
protected or we are all at risk.''
    Today I suggest the need for clearer guidance from the 
national level and will identify some strategies that should be 
considered.
    Today's discussion should not be limited to the efforts of 
the last 11 months. Indeed, Congress took a major step well 
before September 11th. The Public Health Improvement Act, House 
Resolution 2494, which I believe Congressman Ganske referred 
to, established the national policy of ``reasonable 
capacities'' for Public Health across the Nation.
    Subsequently, the Centers for Disease Control, working 
through the Association of Schools of Public Health, 
established centers for Public Health preparedness. My school, 
the University of Iowa and its College of Public Health, is one 
of 15 of these centers, and we have been working diligently at 
our task for more than a year in bringing people together to 
meet this challenge.
    For example, on April 8th of this year and in this very 
room, we hosted a conference on bioterrorism where both Senator 
Tom Harkin, who has repeatedly demonstrated his commitment to 
our Nation's Public Health system, and our own Congressman, Jim 
Leach, gave clear evidence of their desire to see our agenda 
succeed.
    We've also established several mechanisms, such as a train-
the-trainer model involving over 65 individuals from different 
professions around the State, in a concerted effort to bring 
them together to have a coordinated preparedness plan.
    However, our experience is making clear other important 
objectives, and I want to bring these to the committee's 
attention.
    First of all, we need to promote overall preparedness 
through an outcomes orientation. Funding for bioterrorism 
preparedness is currently being distributed through multiple 
national agencies and multiple programs within many of those 
agencies.
    However, maximum coordination between all responders is 
essential for timely identification and response to a threat. 
This goal can best be accomplished if there's a clearly 
established national set of goals and objectives and 
competencies which will serve as a coordinating point for all 
preparedness-related grant and training programs.
    Schools especially need more information on where the 
practice community wants our educational resources to be 
directed and the outcomes of those educational offerings.
    Second, we need to assure a comprehensive research 
capacity. The Nation's response to last fall's anthrax assault 
demonstrates how front-line Public Health professionals face 
unknown challenges due to the mutation of biologic agents. Yet 
according to Dr. Gregory Gray, who is a partner in our Public 
Health Preparedness Center, and quoting him here, ``With the 
increasing threats of bioterrorism so real, our negligence to 
conduct routine surveillance for noninfluenza causes of 
influenza-like illnesses seems tragic.''
    We recommend that a national network of influenza-like 
illness surveillance be established. Such a system would 
provide earlier detection of naturally occurring emerging 
viruses and also provide warning in times of covert 
bioterrorism acts.
    Third, we must assure the availability of and 
accountability for an appropriately trained Public Health work 
force. Establishing national standards would provide the 
strategic framework for coordinating this Public Health work 
force. However, it does not establish the assurance that those 
who would be in the work force are adequately prepared to carry 
out their responsibilities.
    In their strategic plan for the Public Health work force, 
CDC has laid out a comprehensive agenda for preparedness. This 
document should be evaluated by Congress and serve either as 
the framework for progress or lead to one that will.
    Second, CDC's strategic plan stresses the need for 
incentives, including credentialing or certification of the 
Public Health work force. If there are no standards and 
documentation of baseline capacity, there is little ability to 
assure the appropriate distribution of the Public Health work 
force development resources.
    Congress should also take steps to ensure that funding 
going to the States for terrorism and Public Health 
preparedness is coordinated with and supports the extension of 
resources like the preparedness centers to every State.
    Fourth, we should promote an atmosphere of continuous 
learning. Threats to the health and strategies to address those 
threats are continually evolving, and we must be committed to a 
strategy of continuous learning. However, it does not appear 
that this common-sense approach is always governing our 
preparedness efforts. Allow me to give an example summarized 
from a local Health official who submitted testimony to us in 
Iowa:
    Our county was visited by the Office of Inspector General, 
which conducted a nationwide study for the Department of Health 
and Human Services about State and local Health Departments' 
ability to detect and respond to a bioterrorism event.
    Our Department inquired about having access to the results 
of the survey we participated in and were told that they would 
not be made available. I feel this would have helped our 
Department in planning and development to share this 
information, truly an opportunity wasted.
    This example provides a final perspective on the challenge 
we face. The emergence of biologic threats through terrorist 
activity should not change Public Health's responsibility for 
the health of the public. Public Health officials must be seen 
as essential partners not only in the health system's response 
to terrorism but in the public safety response as well.
    Thank you for this opportunity to contribute to this 
important endeavor.
    [The prepared statement of Mr. Atchison follows:]

    [GRAPHIC] [TIFF OMITTED] T7891.047
    
    [GRAPHIC] [TIFF OMITTED] T7891.048
    
    [GRAPHIC] [TIFF OMITTED] T7891.049
    
    [GRAPHIC] [TIFF OMITTED] T7891.050
    
    [GRAPHIC] [TIFF OMITTED] T7891.051
    
    [GRAPHIC] [TIFF OMITTED] T7891.052
    
    [GRAPHIC] [TIFF OMITTED] T7891.053
    
    [GRAPHIC] [TIFF OMITTED] T7891.054
    
    [GRAPHIC] [TIFF OMITTED] T7891.055
    
    [GRAPHIC] [TIFF OMITTED] T7891.056
    
    [GRAPHIC] [TIFF OMITTED] T7891.057
    
    [GRAPHIC] [TIFF OMITTED] T7891.058
    
    [GRAPHIC] [TIFF OMITTED] T7891.059
    
    [GRAPHIC] [TIFF OMITTED] T7891.060
    
    [GRAPHIC] [TIFF OMITTED] T7891.061
    
    Mr. Horn. Thank you. That's very helpful.
    Dr. Misra, can we get a good summary? We've got your paper, 
and we need to move a little, so--it isn't our problem, but you 
know airlines----
    Dr. Misra. OK, I'll--yes.
    Mr. Horn [continuing]. And small parts of the Nation, they 
just decide to quit, so----
    Dr. Misra. And you need to be there early.
    Mr. Horn. Yes.
    Dr. Misra. Yes, I will then summarize from my heart.
    Mr. Ganske spoke about monitoring the air, water and soil 
for human pathogens. Mr. Leach spoke about splitting the atom 
and technology that has revolutionized agriculture. I'm also 
here to tell you that those are wonderful and good things.
    We also need to pay attention to the plant pathogens and 
pests that can be a target of agroterrorists. That's the 
summary, the gist of my talk, and what we need to do is to work 
on four areas:
    One is the rapid detection technology. The other is the 
information technology. The third is the genetic technology 
that Mr. Leach talked about. The fourth is seed science and 
technology. Being the Director of Seed Science, I must speak a 
little bit on seeds.
    Let me begin with that, seeds. United States is the largest 
producer and consumer of seeds in the world. And because of 
that position we have, seed can be a target of agroterrorists. 
The important thing about this is, we are not speaking of loss 
of human life here but loss of public confidence in our export 
and economic decapitation that can come due to the export of 
everything being shut down.
    The USDA very recently funded a plant laboratory diagnostic 
network, which is a wonderful thing and a slow beginning step 
toward this, but we need a seed laboratory network. There are 
approximately 150 seed laboratories in the country, and they 
are not networked.
    A lot of these plant disease pathogens and pests can have 
the very symptoms of those can be observed in the seed- testing 
operations. The USDA very recently designated Iowa State 
University to manage a national seed health system, so we have 
infrastructure, we have the capacity, and we have the interest 
to develop a seed security program.
    There is quite a bit of new technology, such as 
nanotechnology, spectroscopy, and micro-electro-mechanical 
technology, which can be used for sensing the air, water and 
soil that Mr. Ganske spoke about. Also for plant pathogens and 
pests.
    Further, what we need to do is to integrate these 
technologies with information technology so that whatever we 
find is transmitted in real time to the Federal officials and 
officials who can take action.
    The other thing that is quite important is that this 
information must be very truthful and valid information. 
Otherwise, it can also create a problem in creating fear in our 
consumers.
    So, combining the information technology with the sensing, 
detection technology in the real time is something that needs 
to be done.
    Regarding genetic technology, what we need to do is to 
develop fingerprinting for these plant pathogens and pests that 
are exotic that we do not want to be introduced here in a 
deliberate, mischievous manner. The one example that comes to 
mind is soybean rust. Soybean rust has created havoc in Africa 
and has been detected in Brazil, and there is quite a bit of 
concern that it can appear in our agriculture.
    So, how do we develop some of this technology for detecting 
such kind of microorganisms and microtoxins that can create 
problems for our food safety and security? Each year, Iowa is 
near the top of the Nation in production of corn and soybeans. 
Iowa State University has a strong tradition of serving and 
protecting U.S. Agriculture.
    Our unique strength is that we have extensive collaboration 
with USDA laboratories which are the germ plasm resources and 
also quite a bit of genetic research that is going on on 
campus.
    So these collaborations form a crucial partnership for 
bringing resources to protect our plant agriculture.
    You will notice that I did not speak too much on animal 
agriculture. That is deliberate. Our concept paper that we 
submitted to the Iowa delegation integrated animal agriculture 
and plant agriculture issues, but, very fortunately, we have 
received quite a bit of attention and funding and resources for 
animal agriculture.
    Mr. Horn. Well, if you send that to us, we'll be glad to 
put it in the record at this point.
    Dr. Misra. I'll be glad to do that.
    So my request is that we need significant attention to the 
plant agriculture.
    Thank you.
    Mr. Horn. Thank you very much.
    [The prepared statement of Dr. Misra follows:]

    [GRAPHIC] [TIFF OMITTED] T7891.062
    
    [GRAPHIC] [TIFF OMITTED] T7891.063
    
    [GRAPHIC] [TIFF OMITTED] T7891.064
    
    [GRAPHIC] [TIFF OMITTED] T7891.065
    
    [GRAPHIC] [TIFF OMITTED] T7891.066
    
    Mr. Horn. Now, we have Richard Hainje, Director of FEMA in 
the Region VII. He and I have been following each other into 
how many States now? Because you've got quite a big 
jurisdiction.
    Mr. Hainje. We're up to three so far.
    Mr. Horn. Yeah.
    Mr. Hainje. In a former life, I was chairman of a Senate 
tax committee in the State legislature, so when the chairman 
tells me to hurry up, here we go.
    Thank you, Chairman Horn, Representative Ganske and 
Representative Leach, for the opportunity to testify today.
    I'm pleased to be with you to discuss the challenges facing 
emergency managers and first responders in their efforts to 
better be prepared to respond to acts of terrorism.
    FEMA provides the management expertise and financial 
resources to help State and local governments when they are 
overwhelmed by disasters. The Federal Response Plan forms the 
heart of our management framework and lays out the process by 
which interagency groups work together to respond as a cohesive 
team to all types of disasters.
    The Federal Response Plan's success is built by using the 
existing professional disciplines, delivery systems and 
relationships among the participating agencies of the plan.
    The national strategy for homeland security proposed by 
President Bush builds on the experience of the Federal Response 
Plan to develop one all-discipline, all-hazard plan to cover 
events of national significance and clarify the roles and 
responsibility of different levels of government.
    FEMA takes an active role in preparing to respond to a 
terrorism event. Prior to September 11th, the President tasked 
the FEMA Director with creating the Office of National 
Preparedness. The mission of the Office of National 
Preparedness is to provide leadership in coordinating and 
facilitating all Federal efforts to assist State and local 
first responders in emergency management organizations with 
planning, training, equipment and exercises.
    To further these efforts, the President has requested $3.5 
billion in the 2003 budget to support first responders. In the 
recently passed 2002 Spring Supplemental, Congress provided 
FEMA with $100 million for State and local governments to 
update and enhance existing emergency operation plans.
    The funds for the planning initiative will be allocated to 
the States and other State-level entities on the basis of 
population. These comprehensive plans will form the foundation 
for the work to be done in 2003 to prepare first responders for 
terrorist attacks.
    The unique challenges that a biological or chemical 
scenario would present to the first responder community point 
out the need for effective planning. With the covert release of 
a biological agent, the first responders could be physicians or 
animal control workers instead of the traditional first 
responders.
    Across the Government, we are working to enhance our 
ability to detect biological attacks, better link the Public 
Health and emergency response communities and training 
equipment traditional to first responders to respond to 
bioterrorism.
    The President's proposal to create a Department of Homeland 
Security would strengthen the linkages that are critical to our 
capacity to respond to terrorism. Furthermore, the structure of 
this newly proposed department recognizes that FEMA's mission 
and core competencies are essential components of homeland 
security.
    Terrorism presents tremendous challenges, and in recent 
years, we've made great strides in our efforts to increase 
cooperation between various response communities.
    I have a few more comments, but I would like to just 
summarize and thank you for the opportunity to be here in Iowa, 
where I have seen many great examples of cooperation, State, 
local and Federal.
    [The prepared statement of Mr. Hainje follows:]

    [GRAPHIC] [TIFF OMITTED] T7891.067
    
    [GRAPHIC] [TIFF OMITTED] T7891.068
    
    [GRAPHIC] [TIFF OMITTED] T7891.069
    
    [GRAPHIC] [TIFF OMITTED] T7891.070
    
    [GRAPHIC] [TIFF OMITTED] T7891.071
    
    [GRAPHIC] [TIFF OMITTED] T7891.072
    
    [GRAPHIC] [TIFF OMITTED] T7891.073
    
    [GRAPHIC] [TIFF OMITTED] T7891.074
    
    [GRAPHIC] [TIFF OMITTED] T7891.075
    
    [GRAPHIC] [TIFF OMITTED] T7891.076
    
    [GRAPHIC] [TIFF OMITTED] T7891.077
    
    Mr. Horn. Well, we appreciate that, and with your 
legislative background, that helps us all.
    Now we have another fine person that follows us around, 
James Bogner, Special Agent in Charge, Omaha Division, Federal 
Bureau of Investigation.
    The FBI has done wonders with various things that this 
subcommittee has done, generally with the Y2K situation, which 
was difficult 2, 3 years ago, and has also been very helpful in 
getting with the intelligence in relation to law enforcement at 
local areas. They've worked very good to get that growing.
    Thank you.
    Mr. Bogner. Thank you and good afternoon, Chairman Horn and 
members of the subcommittee.
    The previous mission of the FBI was generally considered to 
be investigate criminal acts and terrorist acts after they had 
occurred; but since September 11th, we understand, and Director 
Mueller, our Director, has ensured that we understand that our 
mission is now to prevention, too. It's more important to 
prevent an act than investigate it after the fact.
    In that regards, we have shifted a substantial number of 
resources to that end. Director Mueller has provided Congress 
with a reorganization plan which you have approved, and we are 
putting that plan into effect. We are doing that in Iowa, as 
well as the rest of the country, and shifting a substantial 
number of resources to fight counterterrorism, not only the 
prevention side, training side, but the many components of 
fighting terrorism.
    One component in that regard is forming a joint terrorism 
task force. We have done that in the States of Iowa and 
Nebraska. I am responsible for both States. For our area, we 
chose one team or one joint terrorism task force but divided it 
into five teams, regional teams.
    We did that because, in discussing this issue with about 
171 law enforcement officials throughout the two States, we 
fully understood that it's very difficult for the law 
enforcement officials in one part of the State of Iowa to let 
their resources go, to conduct investigations, and work with us 
in other parts of the State or, in fact, another State.
    So our intent is to ensure that they are able to be 
responsive to their region in this State with our help and with 
the other Federal and State authorities there.
    Training is another very important component, and it's 
important to conduct that training at all levels and have full 
interaction with all of the partners, and we are a full partner 
in that.
    There are training sessions going on not only that we put 
on, the U.S. Attorney's office puts on through their 
antiterrorism task force within the State of Iowa, but, also, 
the Department of Justice, the Office of Domestic Preparedness 
is a frequent visitor to Iowa and helps with those exercises.
    One of the things we've also learned post September 11th is 
that I think previously, we concentrated on the exercises on 
preparation for single incidents. I was assigned to Oklahoma 
City in 1995, and so I understand the full impact of that 
particular incident, but what we are dealing with in this 
century is multiple incidents.
    And so, in our training sessions, we have shifted focus to 
not only looking at one problem and trying to deal with that 
but multiple problems, as we saw with the mailbox pipe bombs 
which occurred over a five-State area that we had to deal with.
    So that's very important in the shift in focus, and not 
only that, but the coordination of resources to deal with 
multiple events occurring within a short period of time. It's 
also important to develop those plans, response plans, 
communication plans not only at the Federal level, the State 
level, local level and integrate all of those.
    We have all found new partners that we didn't necessarily 
rely upon in the past, because we have had these new challenges 
of the nuclear, biological and chemical agents introduced into 
the criminal acts.
    And so we continue to form those new partnerships, train 
with them and develop contingency plans with them.
    I'd be happy to take any questions.
    [The prepared statement of Mr. Bogner follows:]

    [GRAPHIC] [TIFF OMITTED] T7891.078
    
    [GRAPHIC] [TIFF OMITTED] T7891.079
    
    [GRAPHIC] [TIFF OMITTED] T7891.080
    
    [GRAPHIC] [TIFF OMITTED] T7891.081
    
    [GRAPHIC] [TIFF OMITTED] T7891.082
    
    [GRAPHIC] [TIFF OMITTED] T7891.083
    
    [GRAPHIC] [TIFF OMITTED] T7891.084
    
    [GRAPHIC] [TIFF OMITTED] T7891.085
    
    [GRAPHIC] [TIFF OMITTED] T7891.086
    
    [GRAPHIC] [TIFF OMITTED] T7891.087
    
    [GRAPHIC] [TIFF OMITTED] T7891.088
    
    [GRAPHIC] [TIFF OMITTED] T7891.089
    
    Mr. Horn. OK. Let us get Mr. Posner to give us some thought 
to what we didn't do. He's the Managing Director of the 
Strategic Issues for the Budget Matters of the U.S. General 
Accounting Office and reports to the Comptroller General of the 
United States, a very excellent person, Dave Walker, and he 
also has a 15-year term, so nobody can mess with him, including 
the President, the Congress and everybody else. He's got a very 
good group, and we're delighted to have you here today, if we 
can get out of town.
    Mr. Posner. Thank you, Mr. Chairman, members of the 
committee. I think I'm the only member of this panel who shares 
your interest in making that 5 o'clock flight.
    We've heard today valiant efforts at all levels to address, 
really, a novel, unique threat. We've also heard, just to 
reflect, that each level is stressed, because the challenge 
really goes beyond one level of government, one actor in our 
system. The scale, the size, the complexity, the consequences 
simply are something that every level of government and the 
private sector have got to figure out ways to work together.
    I mean, in some respects, integration is the next step 
following enthusiasm; and what we really need is a national, 
not a Federal, set of initiatives. We need to overcome stove 
pipes within the Federal Government. Over 40 Federal agencies 
are involved in this problem. That's what the Department of 
Homeland Security is partly addressing. We have multiple 
players at State, local, regional levels of government.
    State and local governments are absolutely critical to 
anything we do at the national level in this area. Beyond just 
first responders, which we've heard a lot about, on page eight 
of our statement, we go through the six major priorities of the 
President's Homeland Security Strategy; and each one of them, 
you've got to address and work with State and local 
governments. The Federal Government simply does not have the 
resources, for example, to address security of drivers' 
licenses, a critical element of counterterrorism protection.
    The Federal Government does not hire 650,000 policemen like 
the State and local communities do, who are really out there, 
close to the local issues.
    The Public Health community is absolutely critical to 
protecting the Nation against bioterrorism. Largely, that's a 
function of State and local leadership.
    So, fundamentally, we have to figure out ways to gain State 
and local involvement in this issue through partnerships, and 
there are clear opportunities from the Federal standpoint in 
gaining State and local involvement and engagement and from the 
State and local standpoint in gaining money and expertise, but 
there are also risks. There are risks that the Federal 
Government might find its money devolved and substituted for 
State and local funds.
    Local governments face the risk of new Federal mandates, as 
we've heard today, in such areas as drinking water and port 
security and other areas that they used to own almost 
exclusively are now gaining new national attention.
    And there's a risk in public accountability of having many 
players involved in, say, airport security. When you think 
about how many different players are involved in securing 
airports, you have the TSA; you have the FAA; you have the 
State governments and local governments responsible for 
perimeters; you have the National Guard; you have the airlines. 
So the question is, who does the public turn to when something 
goes wrong? That's a critical issue in partnerships that we all 
have to face.
    We've seen much evolution in the past year of roles and 
responsibilities in this area. We've seen at the Federal level 
not only the Office of Homeland Security Strategic Plan but the 
proposed department. At the State and local level, we've seen 
tremendous change already in work we're doing, looking at local 
level. Regional compacts are starting to be discussed, mutual-
aid agreements.
    King County, Washington, for example, in Seattle, is 
working through a county plan involving over 40 local 
governments within the county, so it's not just a Federal 
issue, as we've heard today. It's State and local governments, 
really, taking initiatives on their own.
    And in some ways, we are kind of evolving, in an ad hoc, 
pragmatic way, a national strategy without the benefit of, 
really, a comprehensive kind of overview in this area.
    What we need in this arena is, as we've heard, we have too 
many needs chasing too few resources, and that's a common 
problem as well. In this regard, we need to make sure that 
whatever we do as a Nation, not just the Federal Government, 
the State and local governments, is addressing clear goals that 
we all can agree on and that we have clear measures that assess 
how are we doing, and we don't really have those yet at the 
national level, and we really need to start getting on with 
that task. Partly, it's involving how much is enough security 
and how will we know it when we get it.
    We also need to ensure, particularly from the Federal level 
as well as States and local governments, that whatever we do in 
the area of funding is well targeted, that the Federal money in 
fact goes to enhance things that otherwise wouldn't be done at 
the State and local community.
    We've heard lots of needs that are really beyond the 
resources here, and we need to build in protections as we 
design these grants to ensure that those grants in fact go to 
promote the highest value. And so we need to make sure that we 
design accountability provisions to make sure that we at the 
national level have some comfort that's happening.
    So, fundamentally, the challenge is to integrate, to 
capitalize on the advantages that each level brings, the 
initiative and values of the local level, the coordination of 
the States and the regions in this country, and then the 
expertise and funding at the national level.
    And I would add that what we really do want is 
institutional capacity and leadership at the Federal level. One 
of the odd things is, just as the interest in intergovernmental 
relationships has increased, why, we no longer have the one 
institution we used to have that met and hashed over these 
things.
    The Advisory Commission on Intergovernmental Relations went 
out of business a number of years ago, where Governors, mayors, 
county executives, State legislators and Federal cabinet 
secretaries would get together periodically with a very good 
staff to address these issues in concert comprehensively. We 
need to think about how we can, at the Federal level and the 
national level, have that kind of debate, and we need personal 
leadership.
    Epitomized most directly, as I was talking to the chairman 
earlier, by Harold Seidman, a person who many of us knew very 
well in Washington, just passed away this week, was a former 
major management leader at the national level, an OMB in the 
National Academy of Public Administration, was a mentor to many 
of us in showing us the way of how you respond to national 
challenges with humility, compassion, intelligence and wisdom, 
and his leadership will be sorely missed.
    Thank you.
    Mr. Horn. Thank you, and I'm delighted that you mentioned 
that statement. I'm sorry that he's passed away. So thank you 
for mentioning him. He deserves it.
    We will ask the gentlemen, Mr. Leach, Mr. Ganske, as to 
what questions, please feel free, just any one of the 
presenters.
    Mr. Leach. First, Dr. Gilchrist, I'm very impressed with 
your long-term leadership of the State Lab and also of your 
commitment to the State Lab system, and I think it's the 
bedrock of communications to a State.
    But I'd like to ask both you and Dr. Atchison about, do we 
have too much concentration at the CDC? And by that, I mean, 
the CDC, which I consider to be one of the truly wondrous U.S. 
Government institutions, is kind of like a pentagon for a given 
kind of security; and what happens if there's vulnerability? Do 
we have adequate backup? And should there be more 
decentralization?
    And there was an example of Dr. Misra, I mean, in the field 
of aspects of agriculture, that Iowa State has been designated 
as the Seed Health Center for the Nation. And so, as we look at 
various new diseases or new threats, should there be a 
decentralized approach where the State of Iowa might have a 
specialization, the State of New Hampshire another 
specialization, or is that totally impractical? And do you have 
any sense for that?
    Ms. Gilchrist. Thank you for that question.
    When September 11th happened last year, the CDC did close 
down, because they understood that the last plane that ended up 
in Pennsylvania was heading toward Atlanta. They came back to 
work, they worked very hard.
    They have one of the few biosafety Level Four facilities 
that currently stand in the Nation. We have one in the military 
in the beltway region of the United States, which is also 
somewhat vulnerable to--perhaps focused in an area that might 
be closed down.
    The IH agency has announced they're going to fund the 
building of about four new biosafety Level Four facilities to 
be distributed around the Nation and that they will be used not 
just for research but will be converted to diagnostic 
facilities as soon as it is necessary, if it would become 
necessary.
    In terms of then assessing, do we have enough distributed 
capacity, I think it's a very good question. I would advocate 
that we tend to increase the biosafety Level Three capacity in 
each of our States and improve it as much as we can. We need to 
assess that. We need to have some really wise decision trees to 
be made about, what's your initial and immediate surge 
capacity, what is your long-term surge capacity?
    We're concerned about the distribution of smallpox 
diagnostics to the States. We believe that the military may 
have some analyses that would be good to be shared and 
distributed to the States. We would like to see the States 
receive that type of diagnostics if, and only if, they are 
accurate--adequately accurate to be performed there and don't 
create some sort of a security or safety issue, and we think 
that's feasible.
    So I hope I've adequately answered my part of it.
    Mr. Leach. Dr. Atchison.
    Mr. Atchison. I think that it's more a question of role. I 
think the CDC has demonstrated its responsibility in serving 
the cutting edge of the research, particularly around 
infectious disease and the steps that need to be undertaken in 
order to identify and respond to infectious diseases. I don't 
believe that should be diminished. I don't think having too 
much knowledge in one place is bad. I think, rather, what I'm 
trying to articulate is the need to ensure that knowledge is 
appropriately distributed to people at the front lines.
    And I would submit that the one distinction that 
bioterrorism perhaps brings to the debate over the threats that 
we face through a terrorist activity is that it is a public and 
private system; that it involves physicians and other health 
professionals at the very, very front line who may not have, as 
a routine matter of governmental exchange of information, 
opportunity to participate in conferences and the other things 
that seem akin to government service.
    We need to establish a system, then, that extends the 
knowledge forward from CDC to those people at the front lines, 
and I think that's what they're trying to do with the Centers 
for Public Health Preparedness. The CDC, as leader, States 
maybe in a tactical way, looking at, how are we organized to 
ensure that it's distributed across the State effectively. And 
then the good kind of local implementation that you heard of 
discussed here from Cedar Rapids, we need to have that same 
kind of capacity in every village and town across our country.
    Mr. Leach. Let me just conclude, because I know the 
chairman has time constraints, but I'm very impressed with the 
movement of the University of Iowa into the Public Health 
domain and in the way it has with the Public Health School, I 
think that really has a lot of implications for sharing of 
knowledge.
    Also, we are extremely grateful for what, Mary, your lab 
has done in the last year; and as we look at these alternatives 
for the future, where the Federal Government has made a very 
minor contribution to some planning options, I'm for the 
maximum options. I hope that we can go forth on that basis. 
Your lab does fabulous work, and it's fabulously important, and 
it's got to be supported.
    Ms. Gilchrist. Thank you from--everybody in our laboratory 
wished they could have been here to hear it.
    Mr. Leach. Thank you, Mr. Chairman.
    Mr. Horn. The gentleman from Iowa, Dr. Ganske.
    Mr. Ganske. Thank you, Mr. Chairman.
    You know, this is typical for hearings in Washington. 
Sometimes you get the most interesting testimony on the last 
panel. Nobody's around, everybody has left, but I really 
appreciate this panel's testimony.
    Maybe I can ask an interesting question that would make the 
people who have left already wish that they had stayed.
    Dr. Gilchrist--and I'll try to be brief, Mr. Chairman. I 
know you need to catch a plane.
    Mr. Horn. Take your time.
    Mr. Ganske [continuing]. In an emergency situation, could 
you use the military or VA Laboratories to augment the existing 
capacity here at the State level?
    Ms. Gilchrist. We're doing everything we can to distribute 
that type of responsibility and technology. You have security 
issues, and you have safety issues, and you have expertise 
issues, so it has to be thought out very well. The anthrax 
strain that we had in our lab was reputed to be the Ames 
strain, and people were very worried about us having it, and 
the National Guard surrounded our building for 6 weeks as a 
result of it.
    So not every hospital laboratory in the country can contain 
that----
    Mr. Ganske. That wasn't exactly what I was talking about, 
for the National Guard to----
    Ms. Gilchrist. There's a move to localize everything you 
can distribute. I've always said, distribute it as close to the 
patient as you can get it, and it's a challenge, it's a big 
challenge. We'll do the best we can.
    Mr. Ganske. All right. How many labs are there in Iowa that 
can test for nuclear agents?
    Ms. Gilchrist. I would say very few. Our laboratory is 
actually testing for a number of other States, because we have 
expertise that they don't have. And I would assume that there 
are research laboratories; I would assume that in Palo, they 
have that type of capacity.
    Our staff that do this type of work could tell you even 
more about it than I can, but I would say it's a handful. We 
need, at a minimum, to be prepared for that.
    Mr. Ganske. How about chemical agents?
    Ms. Gilchrist. You have the little black box-type devices 
that can be used----
    Mr. Ganske. Right.
    Ms. Gilchrist [continuing]. For agents 1 through 10; and if 
it's not agents 1 through 10, what do you do?
    Minnesota is the source of two cases that were interesting 
during September 11th, and one was a greasy suitcase going 
around on the baggage delivery carousel that shut down the 
airport, because it had oozing stuff coming out of it.
    They took it to the Health Department laboratory, and they 
finally got a call from somebody who was missing a suitcase, 
and he said it's Ethiopian curry butter, and, you know, the FBI 
said, ``I don't believe it.''
    So the Lab tested it, they went to the Ethiopian 
restaurant, and they got some Ethiopian curry butter, and they 
put them both in the instrument, and they determined that it 
was Ethiopian curry butter, and the airport opened up again. 
That's what we had a lot of last year.
    Mr. Ganske. Right.
    Ms. Gilchrist. We were identifying things that aren't in 
the little box. The little box sometimes, in Minneapolis, told 
them it was cyanide when it was a minuscule amount of cyanide, 
shut down the restaurant, you know.
    Mr. Ganske. Well, if we had a bag come off a plane in Des 
Moines, Iowa, and it had something oozing out of it, and 
somebody made a phone call and said, ``We're worried about 
this,'' now, there would be ways to test it--I know there are 
lots of labs that have mass spectometry, etc., that could test 
what the compound is; but if they were worried about a chemical 
terrorist agent, I don't know that they'd really want to take 
that in and do that.
    Is that the problem, part of the problem?
    Ms. Gilchrist. That's definitely part of the problem. Each 
of these is a new challenge. You have to figure out how to 
extract it from something. It may also extract the suitcase 
material, you know. So you need relatively high levels of 
sophistication. There probably are a few laboratories----
    Mr. Ganske. What you're saying is, we don't have very much 
here in Iowa, and we need more capability.
    Ms. Gilchrist. Right. Our laboratory would be probably near 
the top of the list or at the top of the list of capabilities 
that could do it, because we do soil, water, air and clinical 
specimens, but we would sometimes be challenged also.
    Mr. Ganske. All right. We'll probably finish this up in 
about 10 minutes. So I just want to--is it--Dr. Atchison, am I 
pronouncing your name correctly? Or Atkinson?
    Mr. Atchison. Yeah. And, please, it's Mr. Atchison, like 
Atchison, Kansas.
    Mr. Ganske. OK. Some of my physician colleagues say that 
they would like to be able to vaccinate themselves and their 
families for smallpox, and other Public Health officials say 
no. Maybe we only vaccinate first responders, emergency people, 
but not the general public; and then if something happened, 
we'd put a ring around this area geographically and then we'd 
vaccinate everyone.
    Do you have an opinion on that? [Laughter.]
    That you can give us in about 60 seconds.
    Mr. Atchison. Well, as a nonphysician, I hesitate to make 
a----
    Mr. Ganske. Well, go ahead, take a stab.
    Mr. Atchison. OK. I believe at this point, the threat, the 
risk is appropriate to a ring vaccination strategy; and I'm 
satisfied that Dr. Quinlisk, from the State Health Department 
who has articulated her opinions on this, is speaking from the 
point of view that seems to be prevailing across the infectious 
disease community at this time.
    Mr. Ganske. OK.
    Mr. Chairman, I have one additional question.
    Mr. Horn. Certainly.
    Mr. Ganske. And this will be directed to Messrs. Hainje, 
Bogner and Posner, and that is this:
    If each of you could give Congress and President Bush one 
suggestion for organizing our new Department of Homeland 
Security--maybe you've had a chance to see what we've passed in 
the House, maybe you haven't, but--if you had just 30 seconds 
each with President Bush, general or specific, what would you 
suggest in terms of our creation of this Department?
    Mr. Hainje. I'll go ahead and go first.
    I'm sure that I would suggest that the final product be an 
organization that would develop a one-plan approach to major 
disasters, acts of terrorism, to address as many of the 
scenarios as possibly can be addressed in one plan. You can't 
have--you can't do the exact same thing for each type of 
incident; but, for example, the Federal Response Plan that 
exists now has emergency support functions.
    In some cases, FEMA is just a facilitator and Public Health 
is the issue, and they're able to facilitate basically the 
business side of attempting to deal with an issue, and Public 
Health does their expertise. At other times, we bring in 
others.
    Mr. Ganske. So you would like something uniform and simple.
    Mr. Hainje. It is suggested in the strategy that there 
would be one plan.
    Mr. Ganske. OK.
    Mr. Hainje. I'm not sure if it's in the legislation itself, 
but the one plan I think would be an excellent idea.
    Mr. Ganske. OK. Mr. Bogner.
    Mr. Bogner. Well, I know our Director has met with 
President Bush and Governor Ridge on a regular basis and 
provided input to him. I'm not familiar with all of the 
intricacies regarding the plan and division of the work. I 
think that is going on at that level, and so I'll defer to our 
Director.
    Mr. Ganske. No. Now, look, this is your chance. Nobody is 
going to say you're doing something wrong if you--is there any 
one thing, when you've been thinking about this, that strikes 
you as being exceedingly important so that if you were there on 
Air Force One with the President and you've got 30 seconds, do 
you have--have you thought about it? Is there anything that has 
struck you in particular that would be important?
    Mr. Bogner. I think the two most important areas are 
absolute coordination of activities and accountability. Whether 
it be for the investigation, prevention or the overall homeland 
security issue, accountability is the key, so that whether it's 
the President or the citizens of the United States, know who's 
in charge of that particular segment of it and who is 
responsible for coordinating it and making sure that it gets 
done.
    Mr. Ganske. Mr. Posner.
    Mr. Posner. Well, I'll repeat what we have said--my boss 
has said, which is, let's not have management be the stepchild 
and the afterthought. Let's put management up front here, 
because that's where the devil is going to be.
    So let's have a deputy secretary for management right up 
front in the creation of the Department. That's No. 1. Someone 
who is a professional, who is appointed possibly for a fixed 
term, with possibly a contract with specific performance goals, 
and then let's think about creating those performance goals and 
not just articulating a bunch of initiatives, but let's try to 
baseline where we are and where we want to go.
    Mr. Ganske. I thank you.
    And I thank you, Mr. Chairman, very much.
    Mr. Horn. Well, thank you.
    And particularly that last part, Mr. Posner. Your boss and 
me, we've talked about management. And last year, the 
appropriators that deal with the Department of State did put in 
a secretary for management, and the new one that is going 
through the Senate now, and we need to get that back in, and it 
is similar to the Department of State. Otherwise, it's just 
going to collapse.
    And we thank you, all of you, for coming, and we're sorry 
we're rushed a little bit, but we're trying to also solve some 
of the problems of Colorado.
    I'd like to thank the people here that helped us the most 
in terms of their staff:
    Mr. Ganske's staff, Meghan Gutierriez, and then Curt 
Mercadante.
    And Mr. Leach's staff, Bill Tate, and then Norine Zamastil 
of the University of Iowa, and the University staff, in 
general, from the desks on.
    Then we have the staff director and acting, to my right and 
your left--she's had her hands full on this trip--Bonnie Heald.
    And Chris Barkley, assistant to the subcommittee.
    And Michael Sazonov, staff assistant, has been very 
helpful.
    And our court reporter has had a tough day, I'm sure. It's 
very difficult when you have a lot of speakers, you've got 
echoes in the chamber and everything else, but, boy, there she 
is, right on the spot, so we thank Bev Herring for being here. 
Appreciate it.
    And with that, gentlemen, if there are no other questions, 
we are now adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T7891.090

[GRAPHIC] [TIFF OMITTED] T7891.091

[GRAPHIC] [TIFF OMITTED] T7891.092

[GRAPHIC] [TIFF OMITTED] T7891.093

[GRAPHIC] [TIFF OMITTED] T7891.094

[GRAPHIC] [TIFF OMITTED] T7891.095

[GRAPHIC] [TIFF OMITTED] T7891.096

[GRAPHIC] [TIFF OMITTED] T7891.097

[GRAPHIC] [TIFF OMITTED] T7891.098

[GRAPHIC] [TIFF OMITTED] T7891.099

[GRAPHIC] [TIFF OMITTED] T7891.100

[GRAPHIC] [TIFF OMITTED] T7891.101

[GRAPHIC] [TIFF OMITTED] T7891.102

[GRAPHIC] [TIFF OMITTED] T7891.103

[GRAPHIC] [TIFF OMITTED] T7891.104

[GRAPHIC] [TIFF OMITTED] T7891.105

[GRAPHIC] [TIFF OMITTED] T7891.106

[GRAPHIC] [TIFF OMITTED] T7891.107

[GRAPHIC] [TIFF OMITTED] T7891.108

[GRAPHIC] [TIFF OMITTED] T7891.109

[GRAPHIC] [TIFF OMITTED] T7891.110

[GRAPHIC] [TIFF OMITTED] T7891.111

[GRAPHIC] [TIFF OMITTED] T7891.112

[GRAPHIC] [TIFF OMITTED] T7891.113

[GRAPHIC] [TIFF OMITTED] T7891.114

[GRAPHIC] [TIFF OMITTED] T7891.115

[GRAPHIC] [TIFF OMITTED] T7891.116

[GRAPHIC] [TIFF OMITTED] T7891.117

[GRAPHIC] [TIFF OMITTED] T7891.118

[GRAPHIC] [TIFF OMITTED] T7891.119

[GRAPHIC] [TIFF OMITTED] T7891.120

[GRAPHIC] [TIFF OMITTED] T7891.121

[GRAPHIC] [TIFF OMITTED] T7891.122

[GRAPHIC] [TIFF OMITTED] T7891.123


</pre></body></html>
